<html>
<title> - PROTECTING THE HOMELAND: BUILDING A LAYERED AND COORDINATED APPROACH TO BORDER SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                  PROTECTING THE HOMELAND: BUILDING A
          LAYERED AND COORDINATED APPROACH TO BORDER SECURITY

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2004

                               __________

                           Serial No. 108-51

                               __________

    Printed for the use of the Select Committee on Homeland Security


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
24-602                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, MississPpi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
David Dreier, California             Barney Frank, Massachusetts
Duncan Hunter, California            Jane Harman, California
Harold Rogers, Kentucky              Benjamin L. Cardin, Maryland
Sherwood Boehlert, New York          Louise McIntosh Slaughter, New 
Joe Barton, Texas                    York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 Ben Chandler, Kentucky
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

           Subcommittee on Infrastructure and Border Security

                     Dave Camp, Michigan, Chairman

Kay Granger, Texas, Vice Chairwoman  Loretta Sanchez, California
Jennifer Dunn, Washington            Edward J. Markey, Massachusetts
Don Young, Alaska                    Norman D. Dicks, Washington
Duncan Hunter, California            Barney Frank, Massachusetts
Lamar Smith, Texas                   Benjamin L. Cardin, Maryland
Lincoln Diaz-Balart, Florida         Louise McIntosh Slaughter, New 
Robert W. Goodlatte, Virginia        York
Ernest Istook, Oklahoma              Peter A. DeFazio, Oregon
John Shadegg, Arizona                Sheila Jackson-Lee, Texas
Mark E. Souder, Indiana              Bill Pascrell, Jr., New Jersey
John Sweeney, New York               Kendrick B. Meek, Florida
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio


                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security............................................     1
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Infrastructure and Border Security.............................    11
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................    20
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    16
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    21
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas.................................................    13
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas........................................    22
The Honorable John B. Shadegg, a Representative in Congress From 
  the State of Arizona...........................................    18
The Honorable Mark E. Souder, a Representative in Congress From 
  the State of Indiana...........................................    15

                               WITNESSES

Panel I
Chief David Aguilar, Tucson Sector Border Patrol Chief, Bureau of 
  Customs and Border Protection, Department of Homeland Security
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Victor X. Cerda, Acting Director of Detention and Removal 
  Operations, Bureau of Immigration and Customs Enforcement, 
  Department of Homeland Security
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
Panel II
Mr. T.J. Bonner, President, National Border Control Council
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Dr. James Carafano, Senior Research Fellow, Defense and Homeland 
  Security, Heritage Foundation
  Oral Statement.................................................    24
  Prepared Statement.............................................    26
Mr. Randel K. Johnson, The United States Chamber of Commerce and 
  Americans for Better Borders
  Oral Statement.................................................    32
  Prepared Statement.............................................    34
Mr. Sergio Ugazio, Secretary, Local 1944 National INC Council, 
  American Federation of Government Employees
  Oral Statement.................................................    46
  Prepared Statement.............................................    48


HEARING ON PROTECTING THE HOMELAND: BUILDING A LAYERED AND COORDINATED 
                      APPROACH TO BORDER SECURITY.

                              ----------                              


                         Tuesday, June 15, 2004

                          House of Representatives,
                     Subcommittee on Infrastructure
                               and Border Security,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
Room 2318, Rayburn House Office Building, Hon. Dave Camp 
[chairman of the subcommittee] presiding.
    Present: Representatives Camp, Dunn, Smith, Diaz-Balart, 
Shadegg, Souder, Sanchez, Dicks, Slaughter, Jackson-Lee, and 
Turner.
    Mr. Camp. [Presiding.] The Subcommittee on Infrastructure 
and Border Security hearing will come to order. Today's hearing 
is on Protecting the Homeland: Building a Layered and 
Coordinated Approach to Border Security. This hearing will 
examine the level of cooperation within the Department of 
Homeland Security in preventing terrorists and others from 
entering the United States illegally.
    Today, we will hear from two panels. Panel I is Mr. Victor 
Cerda, Senior Adviser to the Assistant Secretary, U.S. 
Immigration and Customs Enforcement, Department of Homeland 
Security; and Mr. David Aguilar, Tucson Sector Border Patrol 
Chief, Bureau of Customers and Border Protection, Department of 
Homeland Security. Panel II is Dr. James Carafano, Senior 
Research Fellow for Defense and Homeland Security at the 
Heritage Foundation; Mr. Randel K. Johnson, Vice President for 
Labor, Immigration and Employee Benefits at the U.S. Chamber of 
Commerce; Mr. T.J. Bonner, President of the National Border 
Patrol Council, AFL-CIO; and Mr. Sergio Ugazio, Secretary for 
the National INS Council Local 1944 of the American Federation 
of Government Employees.
    Thank you all for your participation. We have agreed at 
this meeting among the members to waive all opening statements 
in order to provide sufficient time for both panels and for 
questions. Members may submit their opening statements for the 
record. The record will remain open for 10 days after the close 
of the hearing. We will divide the hearing time with 1 hour for 
each panel.
    I would now recognize Ms. Sanchez to offer her welcome to 
the witnesses.
    Ms. Sanchez. Thank you, Mr. Chairman, and good morning. 
Thank you again to all of our witnesses for coming before us 
today. I think this is one of the most important topics that we 
have on our subcommittee to explore. Once again, in the 
interests of time because I know we have a long agenda, I 
welcome and I look forward to your testimony.
    Thank you.
    Mr. Camp. Thank you.
    We will begin with panel I. I want to again welcome Mr. 
Victor Cerda and Mr. David Aguilar. We will ask you to briefly 
summarize your statement in 5 minutes or less. You may begin.

 STATEMENT OF VICTOR X. CERDA, SENIOR ADVISOR TO THE ASSISTANT 
SECRETARY, U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Cerda. Good morning, Chairman Camp and distinguished 
members of the subcommittee. My name is Victor Cerda. 
Currently, I am the Senior Adviser to the Assistant Secretary 
of the U.S. Immigration and Customs Enforcement. It is my 
privilege to appear before you to discuss our agency's 
immigration enforcement efforts.
    ICE is the largest investigative arm of the Department of 
Homeland Security, charged with the mission of preventing 
terrorist and criminal activity by targeting the people, money 
and materials that support terrorists and criminal 
organizations. In that mission, U.S. immigration and customs 
laws are among our most important enforcement tools. Our goal 
in enforcing these laws is to restore integrity to our nation's 
immigration system. The key to this effort is prioritization. 
We attack the most critical threats first.
    Our first order of business is to address the serious 
threats to our communities and our nation posed by violent 
criminal aliens, individuals with possible terrorist 
associations, fugitive alien absconders, and sexual predators. 
We are getting results. Since March 2003, ICE has removed more 
than 85,000 criminal aliens and we expect to exceed last year's 
numbers. Similarly, ICE has been involved in several cases 
regarding foreign nationals who posed a threat to our national 
security, such as the case announced yesterday regarding Mr. 
Abdi.
    Under DHS, ICE combines the once separate legal authorities 
and law enforcement resources of the former INS and the U.S. 
Customs Service to create a more powerful enforcement agency. 
For example, we have combined resources from both agencies to 
develop a unified smuggling division, enabling us to hit 
smuggling organizations of all kinds much more effectively. 
Likewise, the financial investigation capabilities we gained 
from Customs, housed in Cornerstone, our comprehensive economic 
security initiative, allows us to more effectively follow the 
money trails that support smuggling, criminal and terrorist 
organizations.
    All of these tools were brought together in Operation ICE 
Storm, an ICE interagency task force we launched last year in 
Phoenix, Arizona in response to a violent crime wave led by 
rival smuggling gangs. ICE brought our expertise in human 
smuggling, weapons and drug trafficking, and money laundering 
investigations into a partnership with other stakeholders at 
the Arizona border, including Customs and Border Protection, to 
disrupt and dismantle these smuggling organizations. Since we 
launched ICE Storm, we prosecuted more than 190 defendants for 
human smuggling, kidnapping, money laundering and weapons and 
drug violations, and we have seized over $5.2 million.
    This is just one example of how we work with other agencies 
to better coordinate our efforts in this new homeland security 
mission. We are also working with our counterparts at CBP, 
Custom and Border Protection, in efforts to construct a unified 
enforcement front at the Arizona border, for example. We are 
strengthening relationships with state and local law 
enforcement through a variety of innovative initiatives. We 
have developed groundbreaking agreements with law enforcement 
agencies in Florida and Alabama to delegate immigration 
enforcement authorities to state officers, providing us with a 
valuable force multiplier on the frontlines of law enforcement.
    ICE is also deploying our information-sharing assets such 
as the Law Enforcement Support Center, to provide our partners 
at the federal, state and local levels with timely and accurate 
immigration information to aid in enforcement. In March alone, 
for example, the LESC fielded over 60,000 calls from law 
enforcement and placed over 2,100 detainers on aliens. Finally, 
our Compliance Enforcement Unit is a valuable tool for 
gathering, analyzing, and disseminating information on 
immigration violations, drawing on the data from national 
databases.
    With each of these initiatives, we are working towards 
restoring and maintaining integrity in our immigration system, 
ensuring that a potential vulnerability is sealed from those 
who would do us harm. Mr. Chairman, today I focused on only a 
small part of what ICE contributes to the coordinated effort to 
secure our borders and homeland. With the enforcement and 
investigative capabilities of ICE it has brought together, and 
by working with our colleagues at the federal, state and local 
levels, we have developed an effective new approach to border 
security and immigration enforcement.
    In conclusion, I would like to thank you, Mr. Chairman and 
members of the subcommittee for the opportunity to testify 
today. I look forward to answering your questions.
    Thank you.
    [The statement of Mr. Cerda follows:]

                 Prepared Statement of Victor X. Cerda

I. INTRODUCTION
    Good morning, Chairman Camp and distinguished Members of the 
Subcommittee. My name is Victor Cerda, currently I am the Acting 
Director for Detention and Removal Operations (DRO) at U.S. Immigration 
and Customs Enforcement. It is my privilege to appear before you to 
discuss the immigration enforcement mission of U.S. Immigration and 
Customs Enforcement (ICE). I am here today to testify you because of my 
knowledge and professional role both with the former INS and currently 
with ICE. Over the course of the last year, I have been in several 
different leadership positions including the Acting Chief of Staff, 
Principal Legal Advisor, Special Counsel to the Assistant Secretary and 
currently, the Acting Director of Detention and Removal Operations. 
These positions have provided me with the Operational and 
Administrative knowledge needed to testify before you today. As the 
largest investigative arm of the Department of Homeland Security (DHS), 
ICE is charged with the mission of preventing terrorist and criminal 
activity by targeting the people, money, and materials that support 
terrorist and criminal organizations. One of our key objectives within 
that larger mission is to detect and address vulnerabilities in our 
border security.
    We know that criminal and terrorist organizations have exploited--
or attempted to exploit--gaps and vulnerabilities in our border and our 
immigration systems to gain entry to our country. With ICE's enhanced 
ability to investigate both immigration and customs violations, we are 
uniquely positioned to enforce our homeland security missions in ways 
never before possible. Our nation's immigration laws are among our most 
important law enforcement tools in that effort.

II. ENFORCEMENT PRIORITIES
    ICE's goal in enforcing these laws is to restore integrity to our 
nation's immigration system. The key to this effort is prioritization--
systematically attacking the most serious threats first. Specifically, 
ICE has made the apprehension and removal of dangerous criminal aliens 
and national security threats our top enforcement priority. This is not 
to suggest that ICE does not fully and consistently enforce the law in 
other situations. It is simply to suggest that our first order of 
business is to address the serious threats that individuals with 
possible terrorist associations, fugitive alien absconders, violent 
criminal aliens, sexual predators, and others pose to our communities, 
our families, and our nation. Our objective is to strategically target 
our resources and authorities on the most dangerous aliens in order to 
remove them from the streets before they can do harm.
    It's a strategy that is getting results. Since March 1, 2003, ICE's 
Detention and Removal Office (DRO) has removed more than 85,730 
criminal aliens and we expect to exceed last year's numbers. The DRO 
has more than 18 fugitive absconder teams across the nation and has 
created a ``Most Wanted'' list of the most dangerous criminal aliens, 
which has been a valuable tool for generating tips and leads. From the 
original list, nine of the ten were captured within a few weeks, and 
the tenth was determined to have already left the country. Under ICE's 
``Operation Predator,'' which targets pedophiles, child sex tourists, 
and child pornographers we have arrested 3,023 child sex predators who 
exploit children for pleasure or profit. Approximately 40 percent of 
the predators we've arrested under this program have entered the United 
States illegally, while an additional 20 percent have been visitors who 
have violated the terms of their visa by either overstaying or 
violating the terms of their visas.

III. BACKGROUND
    ICE was formed on March 1, 2003, by combining the investigative, 
detention and removal, and intelligence arms of the former Immigration 
and Naturalization Service (INS) and the former U.S. Customs Service, 
including Customs' Air and Marine Operations (AMO), along with the 
Federal Protective Service (FPS) and the Federal Air Marshal Service 
(FAMS). Prior to being restructured as part of the Department of 
Homeland Security, the INS was a ``dual mission'' agency, responsible 
for granting citizenship services and benefits to new arrivals to our 
country while being simultaneously responsible for enforcing 
immigration law. This dual mission resulted in difficulties for the 
agency, which often struggled with the challenge of how to best execute 
two missions that did not always complement one another. The 
reorganization into DHS, which split the dual INS missions into 
separate agencies, was a commitment on the part of our government to 
help our people better execute the missions with which they have been 
charged.
    While our sister agency, U.S. Citizenship and Immigration Services 
(USCIS), focuses its attention on providing immigration services, ICE 
is a law enforcement agency. By combining the once separate legal 
authorities and law enforcement resources of the former INS and former 
Customs, we have created a more powerful enforcement agency better 
capable of dealing with ICE's legacy agencies' jurisdictions.
    Consider, for example, ICE's creation of a unified smuggling 
division. Prior to our reorganization into DHS, enforcement authorities 
for drug and contraband smuggling were the province of the Customs 
Service, while enforcement authorities for human smuggling were the 
exclusive province of INS. Unfortunately, criminal smuggling 
organizations are less fastidious in their division of labor. Motivated 
by profit and profit alone, they might move drugs one day and human 
``cargo'' the next--shifting their tactics in response to demand, 
profit margins, and enforcement patterns. By combining these two units, 
we can now hit these organizations much more effectively, whether they 
are trafficking in drugs, weapons, or illegal aliens.
    Moreover, with the financial investigations capabilities we gained 
from legacy Customs, ICE is now able to follow the money trails that 
support these criminal smuggling organizations more effectively than 
ever before. Under Cornerstone, our comprehensive financial 
investigations initiative, ICE has the ability to follow the money 
trails that support smuggling, criminal, and terrorist organizations. 
We know that criminal and terrorist organizations must earn money to 
fund their ongoing operations, and we also know that they move and 
store that money through a variety of illicit schemes. With 
Cornerstone, we bring to bear one of the most sophisticated financial 
investigations shops in law enforcement to detect these financial 
schemes, disrupt the flow of money, and put these organizations out of 
business. These enforcement abilities help disrupt the illegal aliens 
ability to access the United States by using these criminal smuggling 
organizations.

IV. COORDINATED/COOPERATIVE EFFORTS
    All of these tools were brought to bear in one of our agency's most 
striking successes: ``Operation ICE Storm,'' an initiative we launched 
last year in Arizona. Over the course of several months, our agents and 
their state and local counterparts in the Phoenix area began to track 
increasing and alarming levels of violence related to human smuggling 
operations. Rival smuggling gangs were engaging in violent 
confrontations and bloody shootouts in and around the metropolitan 
area. The victims were not only gang members. In some cases, the human 
beings who were the smugglers' ``cargo'' were kidnapped and held for 
ransom, sexually assaulted, or simply executed outright in order to 
deny profit to rival gangs.
    In response to this violent crime wave, ICE assembled ``Operation 
ICE Storm,'' an interagency task force to combat violent crime in the 
Phoenix metropolitan area. We brought our expertise in human smuggling, 
drugs, weapons smuggling, and money laundering investigations into a 
comprehensive partnership with other stakeholders at the Arizona 
border, with the specific goal of disrupting and dismantling the 
operations of these smuggling organizations. We saw rapid results. 
Since we launched ``ICE Storm,'' we've prosecuted more than 190 
defendants for human smuggling, kidnapping, money laundering, and 
weapons and drug violations. We've seized over 100 weapons and over 
$5.2 million. Every time we confiscate an assault weapon or a bundle of 
cash from these criminal organizations, and every time we trace back 
and shut down one of their funding streams, we make it harder for these 
criminals to conduct business. Furthermore, our efforts are producing 
additional positive results. For example, the Phoenix Police Department 
credits ICE Storm with a 17 percent decline in homicides and an 82 
percent decline in migrant-related kidnappings in the final quarter of 
2003. These decreases are a direct result of ICE's ability to 
coordinate resources and combined authorities to disrupt the alien 
smuggling organizations along the border to improve immigration 
enforcement.
    Moreover, in this new homeland security mission we are working more 
effectively with our counterparts in the federal government--notably 
Customs and Border Protection (CBP), our partners at DHS--as well as 
with state and local law enforcement agencies in a coordinated effort 
to leverage our law enforcement capabilities. The Department of 
Homeland Security's recently introduced Arizona Border Control (ABC) 
initiative, for example, builds upon the success of Operation ICE 
Storm. In this new initiative, ICE, working in conjunction with CBP and 
other federal, state, and local agencies, is aggressively applying the 
pressure of immigration laws, anti-money laundering laws, and other 
federal and state statutes to deprive smuggling organizations of their 
funding, disrupt their operations, and dismantle their organizations, 
both in the United States and abroad. We are working closely with our 
partners at CBP, combining our investigative and detention resources, 
expertise, and authorities to construct a unified enforcement front at 
the Arizona border, to fight illegal immigration and its associated 
criminal activity.

V. COORDINATION WITH STATE AND LOCAL LAW ENFORCEMENT
    ICE is also committed to working more effectively with our 
counterparts at the state and local levels, particularly in tracking 
down alien absconders. ICE is acutely aware of the critical role state 
and local law enforcement plays in the broad homeland security mission. 
Officers at the state and local level are not only the first responders 
when there is an incident or attack against the United States, but, 
also, during the course of their daily duties they may encounter 
foreign-born criminals and immigration violators who pose a threat to 
our national security or to public safety. Recognizing that critical 
role, ICE partners with state and local law enforcement agencies 
nationally and locally through a variety of arrangements to enhance the 
overall effectiveness of our collective law enforcement efforts and our 
joint ability to protect the homeland.
    For example, ICE's Institutional Removal Program targets criminal 
aliens who are serving sentenced in federal and state jails, to ensure 
that, upon their release, these aliens are taken directly into ICE 
custody for deportation from the United States--before they can be 
released into the community. Obviously, the success of this program 
depends upon communication, coordination, and cooperation with other 
agencies, to ensure that criminal aliens cannot exploit this potential 
gap. This fiscal year alone, ICE has removed 28,109 criminal aliens 
through this program.
    ICE is also fostering innovative new relationships through our 
287(g) program, which recognizes a role in immigration enforcement for 
state and local law enforcement. Under the terms of Section 287(g) of 
the Immigration and Nationality Act (Illegal Immigration Reform and 
Immigrant Responsibility Act, sec. 113, Sept. 30, 1996), Congress has 
authorized ICE to enter into written agreements with state and local 
authorities to define the full extent of this partnership. A state or 
local law enforcement agency works with ICE to develop a Memorandum of 
Understanding (MOU), which details each party's specific 
responsibilities under the agreement. Once this agreement is in place, 
ICE provides officers with a five-week training program in immigration 
issues, and provides supervision and support for state and local 
officers engaged in immigration enforcement. We see this as a valuable 
``force multiplier'' program for more effective immigration 
enforcement. These authorities, which are initiated by the states or 
local jurisdictions, are currently in effect in Florida and Alabama.

    VI. INFORMATION-SHARING
    ICE also maintains a number of powerful information-sharing tools 
that we use to provide critical feedback to our federal, state, and 
local counterparts in the field. Our Forensic Documents Laboratory 
(FDL), for example, is a critical investigative tool in the battle 
against immigration fraud, the only federal crime laboratory dedicated 
almost exclusively to the forensic examination of documents. The lab is 
staffed 365 days a year to provide a full range of services to law 
enforcement agencies, including handwriting analysis, foreign and 
domestic document examinations, fingerprint analysis, and training in 
the detection of fraudulent documents. Another key ICE asset, the Law 
Enforcement Support Center (LESC), maintains a vast store of 
information related to immigration, which we provide to state and local 
law enforcement when appropriate. In fiscal year 2003, the LESC 
responded to nearly 600,000 queries, an increase of over 175,000 from 
the previous fiscal year. These phone queries allow ICE to place 
detainers or detention holds on illegal aliens who may be in the 
custody of local law enforcement based on information that they may 
receive from the phone query. The FDL and LESC are just two examples of 
how ICE is providing critical information and training services to our 
state and local law enforcement partners, contributing to officer 
safety, community safety, and national security.
    Finally, ICE's Compliance Enforcement Unit (CEU) is a valuable tool 
for collecting, gathering, and disseminating information on immigration 
violators. The CEU examines data from several databases--the Student 
and Exchange Visitor Information System (SEVIS), the National Security 
Entry-Exit Registration System (NSEERS), and the U.S. Visitor and 
Immigrant Status and Indicator Technology program (US-VISIT). Through 
analysis of the databases, the CEU identifies possible immigration 
violators and assigns these cases to ICE investigators for action. 
Since its creation in June 2003, the CEU has vetted tens of thousands 
of leads compiled from these databases. Many of these leads have 
resulted in the arrest of individuals with egregious criminal 
convictions.

VII. CONCLUSION
    Mr. Chairman, today I have focused on just a few of the immigration 
enforcement capabilities that ICE contributes to the DHS effort to 
secure our borders and homeland. The United States has always welcomed 
with open arms those who would enter our nation by legal means. Our 
nation's great diversity, and our willingness to accept newcomers from 
all around the world, strengthens our freedoms and our prosperity. At 
the same time, ours is a nation of laws and we are responsible for 
targeting those who would exploit vulnerabilities in the border and 
immigration systems to illegally enter the United States. By 
aggressively enforcing our immigration laws and targeting criminal 
aliens, we seek to deter criminal and terrorist organizations who 
threaten our way of life, and we seek to strengthen the legal 
immigration process for worthy applicants. With the expansive 
enforcement capabilities and innovative investigative techniques that 
ICE has brought together, our agency is uniquely positioned to protect 
our homeland. By working with our colleagues at the Federal, state, and 
local levels, we have developed an effective new approach to border 
security and immigration enforcement. By taking a proactive approach to 
preventing future terrorist attacks and criminal activity, ICE will 
continue to align our investigative priorities with the critical role 
of protecting our homeland.
    In conclusion, I would like to thank you, Mr. Chairman and Members 
of the Subcommittee, for the opportunity to testify today on behalf of 
the men and women of ICE, and I look forward to answering any questions 
you may have.

    Mr. Camp. Thank you very much.
    Mr. Aguilar, you have 5 minutes.

STATEMENT OF DAVID AGUILAR, TUCSON SECTOR BORDER PATROL CHIEF, 
BUREAU OF CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Aguilar. Thank you and good morning. Chairman Camp, 
Ranking Member Sanchez and distinguished subcommittee members, 
it is an honor to have the opportunity to appear before you to 
discuss the level of cooperation within the Department of 
Homeland Security, specifically through the operations and law 
enforcement initiatives of the United States Border Patrol in 
preventing terrorists from entering and remaining in the United 
States.
    My name is David Aguilar and I am currently the Chief of 
the Tucson Sector Border Patrol. It has now been over a year 
that immigration inspectors and U.S. Border Patrol agents from 
INS, agricultural inspectors from the Animal Plant Health 
Inspection Service, and customs inspectors from the U.S. 
Customs Service merged to form the U.S. Customs and Border 
Protection within the Border and Transportation Security 
Directorate at DHS. With a unified presence, focus and 
determination, we have combined our skills and resources to be 
far more effective than as separate agencies.
    The mission of CBP's Border Patrol is to provide homeland 
security along our nation's borders between our ports of entry, 
patrolling and securing over 4,000 miles of international land 
and water border with Canada, and 2,000 miles of international 
border with Mexico. We also patrol roughly 2,000 miles of 
coastal waterways surrounding the Florida Peninsula and Puerto 
Rico.
    We work hand in hand with CBP officers to inspect people 
and cargo entering the country through ports of entry. While 
the priority mission of the Border Patrol is to detect and 
prevent terrorist weapons, including weapons of mass 
destruction, from entering the United States, we still take on 
our traditional missions of interdicting illegal immigrants, 
drugs, currency and other contraband. Historically, major 
Border Patrol initiatives such as Operation Hold the Line in El 
Paso, Operation Gatekeeper in San Diego, and Operation Rio 
Grande in our McAllen Sector have had great border enforcement 
impact on illegal migration patterns along our nation's 
southwest border.
    Today, new DHS initiatives such as the Arizona Border 
Control Initiative will continue to have a significant affect 
on illegal migration. These initiatives have sought to bring 
the proper balance of personnel, equipment, technology and 
infrastructure into areas experiencing the greatest level of 
cross-border illegal activity on the southwest border. Efforts 
have been established and are being improved upon to build 
better liaison with agencies across the southwest and northern 
borders of the United States.
    One example is our participation with the Integrated Border 
Enforcement Team with Canada. Another, similarly, along the 
southwest border with Mexico, are our Border Patrol-Mexico 
Liaison Units, which have worked to achieve the same goals. The 
program has already achieved successes with the cooperation 
between the two countries on issues such as information-
sharing, cooperative enforcement efforts, and border safety 
initiatives, to name a few.
    Shortly after the transfer of the Border Patrol into CBP in 
March of 2003, it was recognized that CBP, Immigration and 
Customs Enforcement's Office of Investigations would need to 
coordinate closely on transferring the Border Patrol's anti-
smuggling units to ICE's Office of Investigations in order to 
properly address various administrative and operational issues. 
A working group consisting of CBP and ICE representatives 
undertook efforts to transfer the administrative functions of 
our anti-smuggling units to ICE's Office of Investigations. It 
also addressed operational issues related to roles and 
responsibilities between the Border Patrol and ASUs. This was a 
critical step in organizing the relationship between the Office 
of Investigations and the Office of Border Patrol in that it 
ensured coordination of operations, as well as the sharing of 
information and intelligence, by clearly outlining roles and 
responsibilities.
    A resulting joint CBP and ICE memorandum accomplished the 
goals. It was signed by Commissioner Bonner and ICE Assistant 
Secretary Michael Garcia on April 14, 2003 and was immediately 
disseminated to respective field offices. This effort is but 
one major component of a mutual, ongoing and very comprehensive 
effort to appropriately link and create what we call a 
synergistic foundation for enforcement between DHS interdiction 
and investigations agencies.
    Another important area is the area of detention issues. On 
the southern border, detention of illegal aliens from Mexico is 
short in duration, as a majority are given the opportunity to 
voluntarily return to Mexico. Long-term detention is required 
of aliens that fall into specific types of categories. These 
categories include criminal aliens other than Mexicans, other 
than Canadians, asylum seekers, and since 9-11, special 
interest aliens. If an alien requires long-term detention, it 
is standard operating procedure to turn the alien over to ICE's 
detention and removal operations branch after the alien has 
been initially processed by Border Patrol.
    As the chief patrol agent of the Tucson Sector, I can offer 
a fresh perspective about collaborative efforts by DHS, non-
DHS, and state and local and tribal agencies under the Arizona 
Border Patrol Initiative. This initiative began on March 
16,2004 and brought together an unprecedented working 
relationship among various federal, state and local agencies to 
include the tribal Tohono O'Odham Nation. There are a number of 
operations that are happening out there where our people are 
working very closely together.
    Mr. Chairman, the Border Patrol is tasked with a very 
complex, sensitive and difficult job, which historically has 
presented immense challenges. The challenge is huge, but one 
which the men and women of the United States Border Patrol face 
every day with vigilance, dedication to service and integrity. 
I would like to thank you again, Mr. Chairman, and the entire 
subcommittee for the opportunity to present this testimony, and 
for your past support of CBP and the Department of Homeland 
Security.
    I would be pleased to respond to any questions that you 
might have at this time.
    [The statement of Mr. Aguilar follows:]

                  Prepared Statement of David Aguilar

    Chairman Camp, Ranking Member Sanchez, and Distinguished 
Subcomittee Members, it is my honor to have the opportunity to appear 
before you to discuss the level of cooperation within the Department of 
Homeland Security (DHS), specifically through the operations and law 
enforcement initiatives of the United States Border Patrol, now a 
component of the U.S. Customs and Border Protection (CBP), in 
preventing terrorists from entering and remaining in the United States. 
My name is David Aguilar, and I am currently the Chief of the Tucson, 
Arizona Sector, CBP Office of the United States Border Patrol (OBP). I 
would like to begin by giving you a brief overview of our agency and 
mission.
    It has been over a year now that Immigration Inspectors and the 
U.S. Border Patrol from the Immigration and Naturalization Service 
(INS), Agricultural Inspectors from the Animal and Plant Health 
Inspection Service (APHIS), and Customs Inspectors from the U.S. 
Customs Service merged to form the U.S. Customs and Border Protection 
(CBP) within the Border and Transportation Security (BTS) Directorate 
of the Department of Homeland Security. With a unified presence, focus 
and determination, we have combined our skills and resources to be far 
more effective than as separate agencies.
    The mission of CBP's Border Patrol is to provide Homeland Security 
along our Nation's borders, between ports of entry, patrolling and 
securing 4,000 miles of international land and water border with Canada 
and 2,000 miles of international border with Mexico. We also patrol 
roughly 2,000 miles of coastal waters surrounding the Florida Peninsula 
and Puerto Rico. We work hand in hand with CBP Officers, who inspect 
people and cargo entering the country through ports of entry. While the 
priority mission of the Border Patrol is to detect and prevent 
terrorist weapons, including weapons of mass destruction, from entering 
the United States, we also interdict illegal immigrants, drugs, 
currency and other contraband.
    Historically, major Border Patrol initiatives such as Operation 
Hold the Line, in our El Paso Sector, Operation Gatekeeper in our San 
Diego Sector, and Operation Rio Grande in our McAllen Sector have had 
great border enforcement impact on illegal migration patterns along the 
Southwest Border. Today, newer DHS initiatives, such as the Arizona 
Border Control Initiative (ABC) will continue to have a significant 
effect on illegal migration. These initiatives have sought to bring the 
proper balance of personnel, equipment, technology and infrastructure 
into areas experiencing the greatest level of cross border illegal 
activity on the southwest border.
    Efforts have been established and are being improved upon to build 
better liaison with agencies across the southwest and northern borders 
of the United States. One example is our participation with the 
Integrated Border Enforcement Teams (IBETs) with Canada, whose mission 
is to enhance border integrity and security at our shared border by 
identifying, investigating, and interdicting persons and organizations 
that pose a threat to national security or are engaged in other 
organized criminal activity. Some of our northern border IBET resources 
are collocated with Royal Canadian Mounted Police (RCMP), ICE and other 
law enforcement agencies.
    Similarly, along the southwest border with Mexico, Border Patrol 
Mexican Liaison Units have worked to achieve the same goals. The 
program has already achieved successes with cooperation between the two 
countries on issues such as information sharing, cooperative 
enforcement efforts, and border safety initiatives to name a few.
    Shortly after the transfer of the Border Patrol into CBP in March 
of 2003, it was recognized that CBP and Immigration and Customs 
Enforcement's Office of Investigations (ICE/OI) would need to 
coordinate closely on transferring the Border Patrol's Anti-Smuggling 
Units (ASUs) to ICE/OI in order to properly address various 
administrative and operational issues. A working group consisting of 
CBP and ICE representatives undertook efforts to transfer the 
administrative functions of ASU to ICE OI, but it also addressed 
operational issues related to roles and responsibilities between the 
Border Patrol and the ASU. This was a critical step in organizing the 
relationship between ICE/OI and CBP/OBP in that it ensured coordination 
of operations, as well as the sharing of information and intelligence--
by clearly outlining roles and responsibilities.
    The resulting joint CBP and ICE memorandum accomplished these 
goals. It was signed by CBP Commissioner Robert Bonner and ICE 
Assistant Secretary Michael Garcia on April 14, 2003, and was 
immediately disseminated to respective field offices. It will optimally 
enhance the security of our nation's borders. This effort is but one 
major component of a mutual, ongoing comprehensive effort to 
appropriately link and create a synergistic foundation for enforcement 
between DHS interdiction and investigations agencies.
    Another important area is on detention issues. On the Southern 
Border, detention of illegal aliens from Mexico is short in duration, 
as the majority are given the opportunity to voluntarily return to 
Mexico. Long-term detention is required of aliens that fall into 
specific types of categories. These categories include criminal aliens, 
Other Than Mexican (OTM) or Canadian, Asylum Seekers, and since 9/11, 
``Special Interest Aliens'' (SIA's).
    If an alien requires long-term detention, it is standard operating 
procedure to turn the alien over to ICE's Detention and Removal 
Operations (DRO) Branch, after the alien has been initially processed 
by OBP. The long term detention of SIA's is critical due to the fact 
that these aliens are from countries that have been deemed by the 
Department of Homeland Security as countries of interest since 9/11 due 
to the possibility of links to terrorist activities from a particular 
SIA country. Both CBP and ICE are continuously working together to 
ensure that no SIA, or aliens identified as a danger to the American 
public are released.
    As the Chief Patrol Agent of the Tucson Sector, and I can offer a 
perspective of our collaborative efforts by DHS, non-DHS, and state, 
local, and tribal agencies under the Arizona Border Control Initiative 
(ABC). This initiative began on March 16, 2004, and brought together an 
unprecedented working relationship among various federal, state, and 
local agencies to include cooperation with the Tohono O'Odham Nation.
    This effort includes co-locating ICE and CBP units to expedite the 
transition from interdiction to investigations. Through the 
coordination center of the Arizona Partnership of the Southwest Border 
HIDTA, other law enforcement agencies will support the ABC targeted 
areas with upcoming collaborative enforcement operations, targeting 
criminal enterprises involved in cross border incursions.
    Transportation hubs at Tucson and Phoenix airports are being 
staffed by personnel from the Transportation Security Administration 
(TSA), ICE, and CBP. Information and intelligence gathered at these 
hubs is fed into the ABC intelligence task force and made available to 
all appropriate BTS and law enforcement partners.
    ICE/Air and Marine Operations (AMO), and CBP/OBP Air Operations are 
cooperatively scheduling flights to maximize available air assets in 
targeted areas. Members of the Border Patrol Search and Rescue Team 
(BORSTAR) and the Border Patrol Tactical Team have been assigned to AMO 
flights for interdiction and rescue operations.
    Increased cooperation for access to public lands has been 
coordinated with Department of the Interior and Department of 
Agriculture entities. This cooperation ensures that the best interest 
of enforcement and the protection of our natural resources are 
maintained. Joint enforcement efforts are also being conducted with the 
National Park Service.
    Nationally, the Border Patrol is tasked with a very complex, 
sensitive and difficult job, which historically has presented immense 
challenges. The challenge is huge, but one which we face everyday with 
vigilance, dedication to service, and integrity. I would like to thank 
you again, Mr. Chairman, and the entire Subcommittee, for the 
opportunity to present this testimony today, and for your past support 
of CBP and the Department of Homeland Security. I would be pleased to 
respond to any questions that you might have at this time.

    Mr. Camp. Thank you very much. Thank you both for your 
statements. We will now go to questioning. Members will be 
recognized and the 5-minute rule will apply.
    As you are aware, Mr. Cerda, there was more disturbing news 
yesterday involving Al-Qa`ida operatives living in the United 
States and their plan to attack an Ohio shopping mall. I think 
it is important to point out the indictment involved in that 
came out as a result of an arrest some months ago on basic 
immigration and document fraud charges. Could you describe how 
the day-to-day investigative and enforcement functions of the 
Immigration and Customs enforcement unit impact our ability to 
fight terrorism here at home?
    Mr. Cerda. Yes. The arrest which was announced yesterday I 
think first demonstrates the important partnership the 
Department of Homeland Security has with the Department of 
Justice. I also think it highlights the importance of the 
unique immigration enforcement authorities which are 
encompassed in DHS in our efforts to thwart potential acts of 
terrorism.
    ICE investigators form the largest partnership with the FBI 
in our national joint terrorist task forces and serve as a 
critical component in ongoing investigations throughout the 
country day to day. As part of that membership, we are 
constantly looking, whether it is criminals using the customs 
enforcement authorities we inherited, or again as in the 
abdicates, utilizing immigration enforcement authorities to 
remove a potential threat from the streets of America. That is 
exactly what happened.
    It is a good example, where based on information of a 
potential threat in Thanksgiving weekend, ICE agents working 
through the JTTF took action, apprehended the individual, 
detained him and placed him into removal proceedings, during 
which time as we proceeded with the administrative procedures, 
the JTTF was also able to continue working its criminal 
investigation which was announced yesterday. So again, it is a 
day-to-day effort that we have using the important immigration 
enforcement authorities, using our customs enforcement 
authorities, and partnering with the Department of Justice.
    Mr. Camp. Could you both comment on the structure in DHS 
and the division of responsibilities in the Border and 
Transportation Security Directorate and how that either helps 
or hurts our ability to apprehend and prosecute terrorists in 
the United States?
    Mr. Aguilar. Yes, sir. Mr. Chairman, I think one of the 
things that has come about as we became DHS and that 
strengthens the ability of all the enforcement entities within 
DHS is the ability to integrate intelligence, interdiction 
efforts and investigative efforts. By that, I mean the 
following, in that we are now able to integrate a lot of the 
intelligence databases that in the past were not necessarily 
shared in the most effective and efficient means possible. 
Today, there is not only the integration of databases, but 
there is also the collaborative effort. There are co-location 
of offices of say for example Border Patrol and investigative 
assets. As an example, in Tucson, Arizona we have ICE 
investigators co-located and working side-by-side with Border 
Patrol agents, side-by-side with TSA assets at the airports.
    Then of course we have opportunities to work with the FBI 
through JTTF and other agencies that are heavily involved in 
the defense of our nation. It is this collaborative effort, 
these integrated databases that are built into the structure 
that have facilitated, and in fact I believe have greatly 
enhanced our opportunities to thwart any kind of terrorist 
activity against our country.
    Mr. Camp. Mr. Aguilar, can you discuss the status of the 
geospatial tracking program on the southern border that is 
being developed in El Paso and how that is linked to the larger 
integrated border intelligence system?
    Mr. Aguilar. Yes, sir. At the present time, as I said, I am 
the Chief over in Tucson so I am not totally familiar with the 
geospatial program that is being worked on in El Paso, but I 
have been briefed on it. Basically what that geospatial program 
will be doing for us is give us a situational awareness of what 
is happening on the border close to real time. In addition to 
that, it will of course be able to articulate where the 
resources are and actually define the threat based on threat 
assessments done by a multiple agency picture that will be 
drawn up as a part of this program out there.
    Mr. Camp. Okay, thank you. Thank you very much.
    Ms. Sanchez may inquire.
    Ms. Sanchez. Thank you, Mr. Chairman. Again, thank you both 
for being here.
    I have a question about the way your agencies work together 
now that you are under the same agency. Let's say that ICE 
knows that there is a direct shipment coming across Nogales or 
someplace like that, and you want to have a controlled 
delivery, where you allow the shipment to go through so that 
you see where it ends up and maybe you catch the big fish, 
rather than just the person bringing the drugs over. How do you 
coordinate with the Border Patrol?
    I have been told by a lot of guys down on the border that, 
especially from ICE, that when you are trying to work together, 
that that is not happening, that things are being caught at the 
border instead or the delivery is being stopped, rather than 
this ability to let it go through and control it and figure out 
where it goes. I want to find out from both of you, do you 
think that you are actually working together in those kind of 
situations or that you are actually impeding each other from 
getting that kind of work done?
    Mr. Cerda. As Chief Aguilar here noted, one of the key 
elements that we have at the border with the presence of the 
Border Patrol there, but in addition the alien smuggling units 
that work hand-in-hand with the Border Patrol, we have taken 
the transition, and given the importance of this integration, 
of that mission and of the situations he noted, to be able to 
control the deliveries of individuals to come in and try to 
determine whether there is a large organization behind that.
    We have worked and focused on the transition of the ASU 
units that previously were with the Border Patrol stations. 
That involves working and looking at the logistical aspects of 
it, too, to include the controlled deliveries, the staging at 
the border. We will continue to be working on that until it is 
perfected. We believe we are on the right track there. While 
you may have occasionally a situation of communication, locally 
we are working together; nationally, again, we have these 
working groups up here to ensure that such situations do not 
occur so that our law enforcement mission is not impeded.
    Ms. Sanchez. Mr. Cerda, your answer was a little 
complicated, I did not really did not get a ``yes, we are 
working well together, and most often when we ask for a 
controlled delivery it actually gets past the border and we are 
able to try to track it down,'' or ``no, we have instances 
where this is being impeded.'' What is the answer to that?
    Mr. Cerda. The answer is yes, we are working together.
    Ms. Sanchez. So you would say the majority of when you call 
for controlled deliveries, it is happening.
    Mr. Cerda. Yes.
    Ms. Sanchez. When you call for controlled delivery, can the 
Border Patrol say no to you? How is it that you are working 
with that?
    Mr. Cerda. It is a mutual understanding because the Border 
Patrol has an important mission at the border. Both of our 
missions need to be in sync. Clearly, if there is a situation 
that arises that may impede effective enforcement at the 
border, it is an issue that needs to be discussed. We have to 
prioritize among ourselves, among the DHS mission, which one 
takes priority. It is case by case. If that situation does 
arise, it does arise and it is handled at a high level out 
there at the local sectors with the SAC offices in ICE, their 
counterparts, or if necessary elevated to the national. But 
frankly, I have not seen that point arise to that point of 
bringing a case up at the national level.
    Ms. Sanchez. And then for the Chief I have a question, 
because your Border Patrol works 24 hours a day.
    Mr. Aguilar. Yes, ma'am.
    Ms. Sanchez. I think ICE works 9 to 5.
    Mr. Cerda. I would correct that. We are available.
    Ms. Sanchez. You are 24 hours now?
    Mr. Cerda. ICE is 24/7. The law enforcement mission exists 
24/7 and we respond.
    Ms. Sanchez. Because I hear a lot from the Border Patrol 
that they get some of these people that have no documents to be 
in our country and they have to release them because your 
people are not around. Can you both comment on that? Is that 
happening?
    Mr. Aguilar. Let me speak for Tucson. First of all, as the 
Chief of the Tucson Sector, which as you probably know?
    Ms. Sanchez. A great city. My family is from there.
    Mr. Aguilar. Yes, a great city. I completely agree, a great 
state, but it is the most active area that we have in the 
country right now, specifically the cross-border illegal 
incursions out there. In Tucson, we work very closely with ICE. 
We do not have a major problem in any kind of response from ICE 
to Border Patrol requirements for any kind of support, whether 
in the area of detention or removal, or response to 
apprehensions or working collaboratively with some of the other 
law enforcement agencies out there.
    There are situations where we will mutually support each 
other. If ICE cannot respond to a call out, for example, from a 
police department, they will in fact call us and we will 
respond for them, and vice versa. In fact, there will be times 
when we do not have units available say, for example, in 
Phoenix or in that area to respond for a law enforcement call 
out. Then, we will call upon them and they will typically get 
out there. It is a good working relationship. It has worked 
tremendously in Tucson and we are still continuing to build on 
that.
    I would like to get back to the issue of cross-border pass-
throughs, if you will. In Tucson, again, as the Chief in 
Tucson, as the most active sector in the nation for narcotics 
trafficking, we work very closely with ICE and the DEA on those 
situations when there is a request and/or requirement from ICE 
investigators to run a load like that through the border. We 
work closely with SAC. The special agent in charge and the 
Chief have joint agreements at the local level that facilitates 
any of those situations when that type of request comes 
through, in collaboration of course with DEA and the U.S. 
Attorney's Office also.
    Mr. Camp. Thank you very much. Your time has expired.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Camp. Ms. Granger may inquire.
    Ms. Granger. Thank you.
    Mr. Cerda, you have in your remarks that since March 1, 
2003 ICE has removed more than 85,730 criminal aliens, and you 
expect to exceed that this year. Give me an idea of how that 
number compares to before ICE was created. Also, give me a 
profile of who these people are, where they are found, how long 
they have been there, and that sort of thing.
    Mr. Cerda. The numbers historically have been increasing. I 
believe you will see a continuing increase under DHS in terms 
of our focus on criminal aliens. The criminal aliens are 
identified whether it is at the POE at the borders or in the 
interior through the Criminal Apprehension Program, through the 
Fugitive Absconder Program, or through again the Institutional 
Removal Program.
    One of the key changes we are making in ICE is to refocus 
the Institutional Removal Program which is a program that works 
at the state facilities, the penal institutions there, 
identifying people, criminal aliens who are amenable to removal 
while they are serving their sentence, so that at the point of 
their completion of that criminal sentence, they are amenable 
and already available for removal. It is a way of identifying 
them early in the process and ensuring that any threats to the 
community are avoided by taking action immediately upon their 
release and taking them into ICE custody, and then effectuating 
their order of removal.
    Again, by this refocus over here, elevating the program, 
the Institutional Removal Program in detention and removals, I 
believe you are going to be seeing increased numbers, increased 
efficiencies in our capability of identifying criminal aliens.
    Ms. Granger. When you said ``they are amenable,'' do you 
mean they agree to it? I do not understand that process.
    Mr. Cerda. Sometimes we have to go through an immigration 
proceeding where they can seek some forms of relief before the 
immigration judge, notwithstanding their criminal convictions. 
So if they are granted relief, they would not be removed. They 
would be subject to release at that point in time. So we still 
have a burden to prove under the Immigration Act, to establish 
the grounds of removability, as well as have an order issued by 
a judge.
    Ms. Granger. Recently, I was able to get some funding for 
the APHIS fingerprinting system for some smaller towns in the 
metroplex. They showed a demonstration of it, and I was so 
impressed. In one case, literally in a matter of about 5 
seconds, they went through all the database which would have 
taken, they said, 2 1/2 weeks doing it by hand. Are you part of 
the APHIS system?
    Mr. Cerda. Biometrics is essential throughout the 
Department of Homeland Security. That is one of the changes 
that has been implemented, is the focus on IDENT-APHIS and the 
use of data not only internally within DHS, but also connecting 
to the Bureau, their wants and warrants system, too, so that 
again at the POEs or when we apprehend an individual, we have 
the capability of running the biometrics and at the same time 
not only identifying immigration violations, but seeing that 
they are wanted in so-and-so state or wanted by the U.S. 
Marshall Service. We are all part of that, and biometrics is 
going to be a bigger part of our enforcement efforts.
    Ms. Granger. Do I still have some time? Mr. Aguilar, 
recently, I think it was in April, there was a town hall 
meeting in Houston. I got some reports of it. There, there 
seemed to be a question about rounding up illegal aliens. The 
statement was made that, no, we are not going to do that; we do 
not round up illegal aliens; there is no problem here. Can you 
give me some more information about what happened at that 
meeting? Are you familiar with it?
    Mr. Aguilar. Unfortunately, I am not familiar with that 
meeting. As I said, I am the Chief over in Tucson. But I can 
tell you that these roundups or sweeps, as some people refer to 
them, are not occurring. The Border Patrol focuses its efforts 
very specifically on cross-border illegal incursions in what we 
refer to in Tucson, for example, as a compressed zone of 
enforcement, where our interdiction efforts are on the 
immediate border and the primary purpose is not only to 
apprehend what does get across, but also to present a high-
visibility, high-profile deterrence presence to keep these 
people from crossing. That is our main focus.
    Ms. Granger. Thank you. I understand. Thank you.
    Mr. Camp. Thank you.
    Mr. Souder may inquire.
    Mr. Souder. I have a couple of questions. From testimony 
that we have had on the border, in Arizona often it is the 
seventh time that somebody has picked up before they are 
detained longer-term. In El Paso, Texas, I think the testimony 
was twelve. At what point when a person commits an illegal 
activity coming into the United States as an illegal alien is 
it considered a criminal offense?
    Mr. Aguilar. The question is for me? Yes, a criminal 
offense basically occurs when the individual crosses into the 
United States for the first time. The criminal prosecution of 
that individual for illegally coming into the United States 
without inspection has certain thresholds that vary in 
different parts of the country. They vary due to the U.S. 
Attorney's capacity to actually handle that workload out there. 
They do work closely with us. And then we have in certain areas 
of the country geographic focuses or focuses on criminal 
activity, for example, that endangers people, not only the 
immigrants, but also the communities where they are crossing.
    Those thresholds, we work hand-in-hand with the U.S. 
Attorney's Office. In Tucson right now, it will vary anywhere 
from nine to twelve times for prosecution purposes. Of course, 
anytime that a criminal alien is apprehended, then prosecution 
thresholds drop tremendously.
    Mr. Souder. I think it is important for both this 
subcommittee, the United States Congress and the American 
people to realize that we can talk about border enforcement and 
making secure borders, but your agents are going to be so 
discouraged if we do not provide the law enforcement to back 
that up, because what you just said, nine to twelve times, and 
that is assuming we catch them, which most people are not 
caught. That is very demoralizing to the agents on the border 
who work, who take risks, who get shot at, as the ranger was 
killed in Oregon, and then find that it takes nine to twelve 
times to find somebody prosecuted means that we do not have 
enough resources to adequately address this problem in numerous 
ways. That is very significant testimony.
    Let me ask another thing. Every single state along the 
southwest border, California, New Mexico, Arizona and Texas, I 
have heard from agents of both of your agencies saying that it 
ranges anywhere from $4,000 to $12,000, you can get a package 
that in 7 days will guarantee you in the United States if you 
are a Central American or Mexican citizen; anywhere from 
$25,000 to $40,000 if you are Middle Eastern. It will guarantee 
you safe passage or you get your money back.
    What are we doing to address those networks? Would that be 
primarily an ICE function? Why isn't that a particular heavy 
focus, particularly if we are watching in the homeland security 
question the terrorism question? Are we looking for flyers, for 
advertising? Is the Mexican government helping us? Are the 
Caribbean islands, if they are coming from that direction into 
the networks? Because this is a huge, almost openly defiant 
challenge to our border security.
    Mr. Cerda. We share the concerns that the smuggling 
organizations do pose to our national security. Clearly, by the 
amounts of fees that you cited, which are pretty accurate, 
smuggling is now more of a criminal organization endeavor, 
given the profits that are there. One thing we are doing now 
under DHS, now not only do you have the traditional alien 
smuggling expertise and authorities that we had under INS, but 
we are also utilizing our Customs enforcement authorities, 
particularly the money laundering aspects, the money laundering 
authorities that we have inherited.
    ICE Storm, for example again, there are not only using our 
traditional alien smuggling approaches, the intelligence, but 
we are also going after the organizations and their resources. 
We are going after them and trying to identify them through 
their exchange of funds across the border internationally. Once 
we go across the border, that is where we work internationally 
with the governments. We also have our international attaches 
out there. But that is a new focus, a new approach, not only 
going after the individuals being smuggled, but going after the 
organizations, in particular their resources, their funding, to 
try to dismantle them not only locally here in the United 
States, but also as well as overseas.
    Mr. Souder. Will we do a deprogramming as we pick up people 
to ask them how they are coming in? What context, the 
advertising, to try to get access to the flyers or the packages 
and the networks?
    Mr. Cerda. Yes. That, again, is not only within ICE, but 
that is something we share closely with the Border Patrol. They 
are the eyes and ears out there at the border. They have the 
interactions. We also do similar debriefings in our detention 
and removal operations offices to identify potential, again, 
third country national risks that are going across the border 
that we have apprehended interior; or also looking at the 
intelligence that we gain from our own investigations, sharing 
that, setting up systems so that there is more communication 
within ICE as well as across the Bureau.
    Mr. Camp. Thank you very much.
    And now Mr. Dicks may inquire.
    Mr. Dicks. Thank you, Mr. Chairman.
    Chief Aguilar, what is the legal authority for Border 
Patrol to conduct interior enforcement of civil immigration 
law?
    Mr. Aguilar. The Border Patrol can operate anywhere within 
the United States under Section 287 and 235 of the INA. We have 
the authority to approach any individual who we believe to be 
in the country illegally.
    Mr. Dicks. I raise this point just because 2 weeks ago the 
Border Patrol engaged in street sweeps and checkpoints in 
Ontario, California, a city which is east of Los Angeles, well 
away from the U.S.-Mexican border. The Border Patrol has also 
been helping ICE with some interior arrests that involve a 
large number of aliens on the southwest border. We were under 
the impression that you had said that the Border Patrol was not 
involved in sweeps.
    Mr. Aguilar. Right. The Border Patrol, again sir, 
concentrates its efforts along the nation's borders, but we can 
operate by statute anywhere within the United States. In 
working with either ICE or any other law enforcement agencies, 
in collaboration with them in the interior, there are occasions 
when we will unify with them. For example, in Phoenix right 
now, we operate at the Phoenix Sky Harbor Airport in a high-
visibility, high-profile deterrence posture out there, and we 
will make arrests out there. We do not conduct sweeps, 
residential or anything of that nature.
    Referring to the operations that you mentioned of about a 
week ago, there were no checkpoints conducted. The only other 
thing that I would add to that, again this happened within San 
Diego Sector. I am not completely familiar or intimate with 
those operations. But we do not conduct sweeps. We do work 
hand-in-hand with state and local law enforcement agencies in 
conducting operations relative to the criminal aspects of 
either human smuggling, narcotics smuggling or any other type 
of quality of life issues that a police department will 
concentrate on.
    Mr. Dicks. Who would you say is in charge of interior 
immigration enforcement?
    Mr. Aguilar. That is one of the issues that are being 
worked out right now between CBP and ICE. The interior 
enforcement as it stands now is actually in the purview of ICE, 
with collaborative efforts with CBP when it is necessary.
    Mr. Dicks. Mr. Cerda, would you agree with that?
    Mr. Cerda. I would agree with that. I also note that there 
are collaborative efforts. Clearly, we are one Department and 
where there are major enforcement initiatives, we use all 
Department resources to include, again, ICE supporting CBP at 
the border or conversely CBP supporting ICE in the interior.
    Mr. Dicks. Thank you, Mr. Chairman. I yield to the Ranking 
Member.
    Ms. Sanchez. Thank you. Thank you, Mr. Dicks very much.
    I have a question because going back to this issue of the 
Ontario sweep, and I realize that you are over in the Arizona 
area, but that did occur. It not only occurred there, but it 
occurred in my area of Santa Ana, California just last 
Thursday. So we are trying to figure out, many members, where 
we see these sweeps going on. What do you mean when you say you 
do not conduct a sweep? I do not know if you know the details 
of the Ontario situation, but what would you say that was, and 
who would you say has jurisdiction over doing something where 
Border Patrol and others come into a neighborhood, a shopping 
area, let's say, and start to ask people for their papers? What 
is that called if that is not a sweep?
    Mr. Aguilar. First of all, let me begin by saying the 
operation last week was in fact an intelligence-based operation 
that was conducted due to numerous telephone contacts and phone 
calls from the local police departments on quality of life 
issues that were occurring within those areas of operation.
    Ms. Sanchez. So you are telling me that local law 
enforcement in Ontario called you and said, hey, we have 
problems over here?
    Mr. Aguilar. Yes. In the areas that the Border Patrol 
presence was at, yes, ma'am. That is my understanding of it.
    Ms. Sanchez. Are you telling you that my Santa Ana police 
chief, in order for you all to come into Santa Ana and do what 
you did on Thursday, my Santa Ana police chief, Chief Walters, 
who does not even want you guys in town, called you up and said 
please come?
    Mr. Aguilar. I cannot speak to Santa Ana. I am not familiar 
with that one. The one I was referring to was the one that I 
was briefed on. That was Ontario, I believe, was one of the 
locations. That is the only one that I am familiar with.
    Ms. Sanchez. Do you know of any other reason why your 
Border Patrol or anybody else would come and do this type of 
thing, other than local law enforcement calling and saying 
please come in?
    Mr. Aguilar. Intelligence-based operations where there is 
intelligence that criminal activity is occurring, that there is 
a need for us to respond out there.
    Ms. Sanchez. Thank you, Chief.
    Mr. Dicks. I was under the impression that ICE was doing 
intelligence work? Do you still do intelligence work? I thought 
that was moved from you over to ICE. That is not true?
    Mr. Aguilar. The intelligence responsibility was moved over 
to ICE, but intelligence-gathering, analysis?
    Mr. Dicks. It is part of the deal.
    Mr. Aguilar. Everybody does it. Every law enforcement 
department does intelligence, especially the operations.
    Mr. Dicks. Are you rebuilding your intelligence capability 
now that it was transferred over to ICE?
    Mr. Camp. I will let you answer that question, and the time 
is expired, and we will go on to another.
    Mr. Aguilar. By intelligence, I am referring to tactical 
intelligence.
    Mr. Dicks. My time is up. Okay.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you. Mr. Shadegg may inquire.
    Mr. Shadegg. Thank you, Mr. Chairman.
    I want to welcome Chief Aguilar. We have worked with him a 
lot in Arizona. I have been down to the border with him a 
number of times. I appreciate your being here.
    Mr. Cerda, today both of you are putting forward a very 
happy face. Things are going well. The agencies are working 
well together. Quite frankly, I understand that, but it seems 
to me the purpose of this hearing is for us to figure out how 
we can help the situation. By dint of my experience on the 
border in the past and my experience on the border since the 
creation of the new Department, I am disinclined to believe 
that everything is hunky-dory and that the agencies are working 
well together.
    What can you tell me, as concrete examples of things that 
are working well, and can you give me some examples of things 
that are not working well with the new integrated Department?
    Mr. Cerda. The concrete examples, again, and paramount is 
the focus on immigration enforcement that previously did not 
exist under INS. It was a split mission there. So that is 
definitely working and I think we are seeing the results. Focus 
at the border, on border enforcement, extending the border, and 
at the same time in terms of investigations, focus on 
immigration enforcement, plus the additional use of the tools 
that Customs enforcement now brings to us, the customs 
investigations, the money laundering aspects. That is going to 
be a new positive aspect that we have under DHS that I believe 
will continue to produce better results.
    Clearly, as we transition, and it is still in early 
transition, I will be the first to say, at DHS, that we will 
continue to identify issues that previously under one umbrella 
at INS were coordinated through internal policies, revisitation 
of those policies, identifying where we can enhance them, the 
fact that they existed in the past, we are still taking a new 
eye to everything to see whether in fact this does now go in 
accord with the DHS mission, does it fit the BTS's overall 
enforcement picture strategic goals.
    That is where we are going. We identify issues. As we have 
mentioned, the ASU issue, we are working towards that because 
previously under one umbrella, it was with the Border Patrol 
station. Now, with the different roles that we have here, we 
add the focus, consolidate the expertise, but clearly there are 
going to be some instances where there are going to be 
coordination issues that arise. Frankly, the answer to that is 
coordination and leadership within DHS, communication 
consistently. We are seeing the benefits of the cross-sharing 
of intelligence that is being gathered. It is not only within 
BTS, but also as part of DHS's IAIP Office, and hopefully we 
will gain really effective intelligence that will assist us in 
targeting our limited resources towards those critical missions 
that exist.
    Mr. Shadegg. With regard to your relationship with Border 
Patrol, are there any areas that are not going as well as you 
think? Or is there anything that this Congress could do to 
facilitate the relationship and coordination between ICE and 
BCDS?
    Mr. Cerda. On that point, clearly, as was mentioned, there 
is some frustration at times with respect to the inability to 
get a prosecution, similarly, with respect to the ability to 
continuously detain everyone that is apprehended. We have 
resources that we have to manage and prioritize. That requires 
constant communication at the local level. We continue to do 
that. One of my hats that I wear as Acting Director of 
Detention and Removals, and I have heard at times locally some 
frustration with the inability to detain everyone, but at the 
same time I think nationally, as well as locally, it is 
understood we are an enforcement mission. Clearly, we want to 
be as effective as possible, but we also have to manage within 
our resources.
    Mr. Shadegg. Chief Aguilar, what would you cite?
    Mr. Aguilar. I would say that things are working very well, 
again speaking from the perspective of Arizona, Tucson 
specifically. One of the great successes we have had out there 
is in fact the Arizona Border Control Initiative, which takes 
in the ICE's ICE Storm operation in Phoenix. The mutually 
supportive effort of all the BTS entities of the state, local 
and tribal law enforcement agencies, are working together out 
there, working collaboratively from all aspects of the 
enforcement field, primarily intelligence, interdiction and 
investigation. All of those agencies coming together, sharing 
the information, and applying their resources in a very focused 
manner has made some tremendous impacts out there.
    Mr. Shadegg. There were some pay-grade issues that existed 
when the two were melded together. ICE had a different set of 
pay-grades and steps and how you move through the steps, versus 
Border Patrol. Can you describe what those issues were and have 
they been resolved, or are they being resolved?
    Mr. Aguilar. Within the Border Patrol, all of our 
journeyman agents are now GS-11s, which was one of the points 
that you refer to. That has been resolved. All of our Border 
Patrol agents are now GS-11s. The investigators that used to be 
under Border Patrol have now changed over to ICE, and I 
believe, and I will let Mr. Cerda speak to that, but I believe 
that has also been addressed.
    Mr. Cerda. We did have a disparity with respect to the 
Customs investigator journeyman level and the former INS 
journeyman level, and that has been now consolidated. They have 
journeymen level 13 and that addressed that issue.
    Mr. Shadegg. And the line agents are happy with that?
    Mr. Cerda. I believe so, yes.
    Mr. Shadegg. Is that your understanding?
    Mr. Aguilar. GS-11s across the board, yes, sir.
    Mr. Camp. Thank you very much. Mr. Turner may inquire.
    Mr. Turner. Thank you, Mr. Chairman. I appreciate both of 
you being with us today.
    I wanted to take this opportunity to mention an item that I 
do not expect either of you to respond to, but I wanted to 
mention that as I think we are all aware, ICE has had some 
budget and financial problems. As you recall, there was a 
suggestion that there was $1.2 billion shortfall which led to a 
hiring freeze in the Bureau of Immigration and Customs 
Enforcement. Although I think it was later explained to be an 
accounting error, but our staff, the Democratic staff, has 
received numerous reports regarding efficiencies in the 
financial management of the Bureau. I have requested by letter 
dated yesterday that the Inspector General of the Department 
conduct an audit of the financial management of the Bureau.
    Specifically, some of the reports indicate that there may 
be potential violations of the Anti-Deficiency Act, which is 
the federal law that prevents an agency from over-obligating 
appropriated funds. So I have requested that the Inspector 
General conduct an audit of the federal financial management 
system at ICE, as well as to look at the larger budget issues, 
particularly any potential violations of the Anti-Deficiency 
Act. I wanted our witnesses to be aware of that, that that 
request had been made.
    One of the issues that I think I heard raised earlier in 
some of the questions was this issue of how are you making 
progress in integrating a lot of these databases. I believe 
Chief Aguilar made reference to that. More specifically, one of 
the reports that we have received on our staff as we visited 
the southwest border and talked to some of the folks at ICE and 
at Border Patrol, what we find is that Border Patrol, ICE and 
CBP are using different country of interest lists. As you know, 
those are the lists that identify citizens from countries that 
present a possible terrorist threat. It seems to me that this 
was something that long ago should have been harmonized.
    So I would like to ask perhaps Mr. Cerda, are you aware 
that your agencies's work off different countries of interest 
lists? And if so, how many countries are on each of the lists 
and where do we get the lists from? Are we taking any steps to 
make sure that all of our DHS agencies are working off the same 
country of interest list? It seems like a very basic 
fundamental effort that should have been long since 
coordinated.
    Mr. Cerda. I am not aware of us working off of different 
types of lists here. Our intelligence is coordinated, 
particularly when it comes to intelligence regarding potential 
threats arising from certain countries, through the Department, 
through the Administration, through T-TEC, and also in 
coordination with the Bureau. I am not aware of separate 
disparate country lists out there. I can tell you that we do at 
the POEs and in the interior, queries off the same databases, 
particularly the IBIS checks that we fun, which serves as a 
feed. We do those queries. We also look at the basic data that 
we have where we can enter any terms of watch areas of concern. 
Again, the intelligence units within ICE, the intelligence-
gathering at CBP, and again in coordination with IAIP is aimed 
at producing intelligence that is uniform across the board, 
based on what is available out there. But my short answer is 
that I am not aware of?
    Mr. Turner. If you do not mind, follow-up on that, because 
that information was provided to us in our visits to the 
southwest border. If that is occurring, obviously it needs to 
be fixed. I would appreciate if you would follow up and finding 
out if we are correct on that, or did we get bad information.
    Mr. Cerda. I will do that.
    Mr. Camp. Thank you. Ms. Dunn may inquire.
    Ms. Dunn. Thank you very much, Mr. Chairman. Gentlemen, 
thank you for being with us today.
    I wanted to ask you a question about the Arizona Border 
Control Initiative. It is being referred to as a model actually 
for the coordination among agencies. I am wondering how this is 
working; how we can encourage and create incentives for this 
sort of partnership in other parts of the country. I am from 
Washington State and we have the Canadian border that we share 
with other states. I am wondering how much the success of ABC 
depends on the priorities of the leadership who are involved. I 
am wondering also how you work with the communities, the 
farmers for example, or the ranchers down there, and how they 
feel about our progress. Could you talk a bit about ABC please?
    Mr. Aguilar. Yes, ma'am. Again, I am the Chief down there 
in Tucson, and as the Chief, Under Secretary Hutchinson also 
named me as the integrator for the BTS entities within Arizona 
out there. As the integrator, the rest of the special agents in 
charge and BTS entity heads work collaboratively in order to 
primarily have a mission focus. In our case, it is kind of 
broad, and that is cross-border interdiction of anything coming 
across that border illegally.
    One of the things that we do in support of that is focus 
our resources, our finite resources. As an example, AMO, air 
and marine interdiction units now, for example, have Border 
Patrol agents as back-seaters, as we call it, in those air and 
marine helicopters to augment our Border Patrol flights across 
that border, both for an interdiction and deterrence posture 
out there. In addition to that, we work very closely with the 
Department of Interior, the Department of Agriculture, to 
broaden our ability to operate on publicly managed lands, 
something that in the past posed a real challenge. We work 
hand-in-hand with the tribal nation out there, with their 
police departments. Some of the main players out there are the 
state, local and other federal non-BTS entities that now focus 
their enforcement efforts under their own statutes and 
jurisdictions, on the criminal organized smuggling groups that 
are working in that area.
    So taking everything from intelligence, interdiction and 
investigation and cohesively applying those enforcement 
efforts, we have made some tremendous impacts out there. As an 
example, if you would allow me to quote just one. In the Tohono 
O'Odham Nation, for example, there has been a reduction of over 
83 percent of abandoned vehicles since the Arizona Border 
Control Initiative began. That is a tremendous number, because 
abandoned vehicles translate to smuggling capacity for 
narcotics and aliens out there.
    One other of them that I will quote very quickly is that 
prior to the commencement of the Arizona Border Control 
Initiative, there was an average of two to five high-speed 
pursuits within that area of operation. Since we began, we are 
now down to one or two a week. So again, those are some of the 
impacts that have been made by that collaborative effort.
    Outreach to the community out there is constant. That is 
one of the major things that we do, to the Native American 
Nations out there, to the ranchers out there, so that they know 
how we are operating, what the rationale is, what the 
deployments are, and especially the impacts. And they have seen 
the benefits of that collaborative efforts among all the BTS 
and other federal agencies out there also.
    Ms. Dunn. Thank you.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you. Ms. Jackson-Lee may inquire.
    Ms. Jackson-Lee. I thank the Chairman very much.
    It is interesting, to the gentlemen that are here, one 
thing that we noted in the Homeland Security Committee is the 
overlapping jurisdiction of a number of committees, and the 
ability of the Homeland Security Committee to focus. I serve on 
the Judiciary Committee, Subcommittee on Immigration and 
Claims, and I have had the opportunity to have Mr. Garcia 
before me. The interest that I think we all have is how do we 
collaboratively and cooperatively secure our borders, both 
north and southern border. An issue that I am working on, and I 
would pose this question to you, the backdrop of the issue is 
that on the southern border, from where I come from, Texas, 
many of the individuals coming into the United States are 
obviously economic opportunists, if you will, or people who are 
seeking greater opportunity from what they consider a 
devastating economy. So it is a difference in what I would 
perceive to be the threat, though we know that the borders 
being open, opens the doors to many different types of threats.
    Would you be kind enough to elaborate on what you think the 
distinction is in terms of securing the border when you are 
dealing mostly with economic entrants? What kind of resources 
are needed in that vein?
    The other question that I would offer is that I have 
authored legislation dealing with helping stem the tide of 
smuggling. One aspect of it is a law enforcement tool that has 
been very effective, and that is a rewards program in order to 
get the large smugglers and to encourage those who may be 
victims to provide information. Any experience that you may 
have with that concept? I would appreciate your answers on both 
of those.
    Mr. Aguilar. I will take the one on the border, northern 
and southern. As the Border Patrol deploys its resources out 
there on the southern border, one of the things that we 
concentrate on is because of the element of flows of illegal 
immigration into the country through there, is what we call in 
Tucson basically reducing the flow, reducing the flow in those 
areas so that the real criminal, the terrorist, the potential 
weapons of mass destruction can be addressed by those 
enforcement assets once they are deployed and that flow is 
reduced out there.
    Essential to reducing that flow out there, of course, and 
key, are going to be the Border Patrol agents that are being 
deployed out there. In addition to that is the force-multiplier 
effect of the infrastructure and technology that is being 
deployed out there literally as we speak. The continual 
building of accessibility to the border, mobility upon the 
border, the remote video surveillance cameras we are deploying 
out there, the sensors, the aerial platforms, all of those 
things combined bring together the components that will reduce 
that clutter and give us greater operational control of that 
border. By operational control, I am talking about knowing what 
is coming at our border and within a reasonable amount of time 
being able to interdict, confront, interview, detain, arrest or 
turn back that threat that has just crossed that border.
    On the northern border, the threat remains the same, that 
potential incursion by people coming into this country with 
either a means or a desire to do harm to our country. The 
fortunate thing on our northern border is we do not have the 
elevated flow. That is where the technology and the 
infrastructure plays a much bigger part on that northern 
border. Our ability to have eyes and ears out there, not 
necessarily human, but electronic or technology-wise to again 
have that operational control.
    So the means by which we are looking to gain that 
operational control remains the same. It is just the flow that 
is different out there, again, reducing that flow.
    Ms. Jackson-Lee. What happens when we have new initiatives 
and new programs, and we take intelligence officers and experts 
away from one area and put them in another area. Does that 
maybe increase the enforcement in one area, but decrease it in 
another? Would you suggest that we need more resources to 
balance out the needs, particularly in intelligence-gathering, 
which is part of what my smuggling legislation focuses on; that 
when you are able to pierce a smuggling operation, the more 
information you get to talk about what others exist, the more 
helpful you are. And if you can get it for those who are 
victims, it is very helpful. What happens when you move one 
from the other? It is like borrowing from Peter to pay Paul. 
Isn't it necessary to provide more resources in order to gather 
the intelligence and enforce evenly, not only on the southern 
border, but on the northern border, which is very large as 
well?
    Mr. Aguilar. Absolutely. Intelligence-gathering 
capabilities, analytical capabilities and evaluative 
capabilities are absolutely essential to any enforcement 
operation out there. The force-multiplier effect that we got 
when we came together as DHS is that all of those agencies that 
before literally stovepiped a lot of the intelligence, that 
intelligence is now melding out there. It is melding because 
all these agencies have access to all of these databases that 
we spoke about previously. So we have magnified our 
intelligence capabilities, both gathering, analytic and 
evaluative. More work needs to be done in that area, and of 
course the human aspect, the personnel is a big part of that, 
yes, ma'am.
    Mr. Camp. Thank you very much. The time has expired and the 
time for this panel has concluded. I want to thank you, Chief 
Aguilar and Mr. Cerda, for your testimony today. I appreciate 
your being here.
    Now we would call panel II: Dr. James Carafano, Mr. Randel 
Johnson, Mr. Bonner and Mr. Ugazio. Please come forward.
    Welcome and thank you for being here. We will begin each of 
you on 5 minutes to summarize your testimony. Why don't I start 
with Dr. Carafano? Thank you.

 STATEMENT JAMES JAY CARAFANO, SENIOR RESEARCH FELLOW, DEFENSE 
         AND HOMELAND SECURITY, THE HERITAGE FOUNDATINO

    Mr. Carafano. I will submit a statement for the record. I 
would like to just make a few opening comments to briefly put 
those in context. I will use my best New York speed to get 
through that.
    Mr. Camp. Thank you.
    Mr. Carafano. The Heritage Foundation has taken a strategic 
approach to looking at the area of homeland security. My 
particular background is in the area of strategy and history, 
and that is how I approach this issue. I think there are a lot 
of lessons in that respect that we can learn from the Cold War. 
The Cold War was a long, protracted conflict. I think this will 
be a long, protracted conflict. I think when Eisenhower became 
President, he really kind of set the strategy for the entire 
Cold War. I think that there is a lot we can learn from that.
    He really said we need three things. He said you have to 
have some security. You have to have some combination of 
offense and defense. That is exactly right. The Homeland 
Security Department is an important part of the defense. You 
also have to have continued economic growth. The whole notion 
of protracted strategies is you want to grow and flourish while 
you hound the enemy into history. You want to be strong and 
then have the resources to provide the security.
    The third thing is you have to protect civil liberties and 
privacy, because that is really the foundation that allows you 
to function and allows you to compete. You really need to do 
all three simultaneously. It is not really a question of 
tradeoffs. I think that is a very appropriate strategy for this 
war. I think it is a great measure to look at what we are doing 
in all our areas of homeland security. If you do not have 
solutions that provide all three, security, economic growth and 
privacy, you really have the wrong answer.
    I think no issue is more appropriate than the issue of 
border security. I think that you cannot have a border security 
strategy that also does not incorporate just border control, 
but it also have to be holistic in looking at it, maritime 
security, immigration, transnational transportation security, 
and the transnational supply train. The victory of border 
security is not just on the border. I think no issue is more 
important than that, than immigration. I do not think there is 
a solution to immigration that looks specifically at border 
control. If you do not have a comprehensive answer that 
includes immigration enforcement, workplace enforcement 
addressed as quotas, economic development in Latin America, 
international cooperation, respect for the rule of law, and 
really look at the economic consequences of all these programs, 
I simply do not think you can address this in a strategic way.
    In my opening statement, I have suggestions for a number of 
initiatives, but in a sense what they all are is helping 
contribute, I hope, to a more holistic approach to this. I 
think, for example, if you notice a lot of my recommendations 
do not deal with border security per se, but they are more in 
areas that in the strategy talk about critical missions of 
domestic counterterrorism and intelligence and early warning. I 
think in some respects, you get a lot bigger bang for the buck 
in terms of enhancing border security by looking at those 
areas.
    I would just like to point out very quickly that I have 
great respect for what the Department of Homeland Security has 
done. I think it is an enormous challenge that they face. I 
think the Congress in many respects has provided the right 
legislative foundation for addressing border security issues. I 
think that DHS has been responsible in the sense that a lot of 
things that they have done is really trying to take a crawl, 
walk, run approach to these things, and look at the 
implications in terms of security, economic development, civil 
liberties, as they look at programs. Things like the Arizona 
Border Initiative, the way they have approached looking at UAVs 
on the border, I think these are the right approach to test 
things out, to experiment, do trial and error. And then from 
them, broaden, because I think that is the only way you develop 
programs that are going to be sustainable over the long term.
    Just the final point I would like to make, very briefly. I 
looked at this issue for 2 years now in some depth, and I just 
do not know how you really adapt a strategic approach to this 
problem unless you can create within the Congress oversight in 
a central committee that can really look across the board at 
these issues. My background is in defense. Could you imagine if 
we had a Department of Defense that was being supervised by 88 
committees? What kind of defense structure or national security 
strategy would we have?
    I think, particularly in the area of border security, I do 
not think we are ever going to achieve a holistic approach, 
which I think is the only way we are ever going to see quantum 
improvements in border security, unless we can consolidate 
oversight in the committees in the House and the Senate. I 
think, for example, the committee's effort in drafting an 
authorization is a great example of that. Some of the 
suggestions that I have, that is just a perfect approach for 
implementing some of those things, is through a well-crafted 
authorization bill. I do not know how you get a good 
authorization bill for the Department of Homeland Security by 
having it authored in multiple committees.
    With that, I will end my statement.
    [The statement of Mr. Carafano follows:]

              Prepared Statement of Dr. James Jay Carafano

    Mr. Chairman and other distinguished Members, I am honored to 
testify before the committee today.\1\ National efforts to enhance the 
security of the goods, people, and services that everyday cross the 
thousands of miles of land borders and tens of thousands of miles of 
coastline ringing the United States are a vital component of protecting 
the homeland. In my testimony, I would like to reaffirm the importance 
of this task as an essential component of the national homeland 
security strategy, assess the progress that has been made so far, make 
the case for further initiatives that will help create a more 
sustainable and integrated approach to protecting the flow of human and 
material capital transiting America's borders, and suggest some 
additional building blocks for creating a national system of systems 
for protecting the nation from transnational terrorist threats as well 
as other criminal and environmental dangers that may be carried through 
the crossroads of global commerce and travel.
---------------------------------------------------------------------------
    \1\ The Heritage Foundation is a public policy, research, and 
educational organization operating under Section 501(C)(3). It is 
privately supported, and receives no funds from any government at any 
level, nor does it perform any government or other contract work.
    The Heritage Foundation is the most broadly supported think tank in 
the United States. During 2003, it had more than 200,000 individual, 
foundation, and corporate supporters representing every state in the 
U.S. Its 2003 income came from the following sources:
    Individuals  52%
    Foundations  19%
    Corporations  8%
    Investment Income  18%
    Publication Sales and Other  3%
    The top five corporate givers provided The Heritage Foundation with 
5% of its 2003 income. The Heritage Foundation's books are audited 
annually by the national accounting firm of Deloitte & Touche. A list 
of major donors is available from The Heritage Foundation upon request.
    Members of The Heritage Foundation staff testify as individuals 
discussing their own independent research. The views expressed are 
their own, and do not reflect an institutional position for The 
Heritage Foundation or its board of trustees.

The Terror War's Front Line
    There are four reasons why border security must remain an essential 
element of national security.
        <bullet> First, in the global war waged by terrorists, visas 
        can be deadly weapons. One ready means available to enemies 
        wishing to enter the United States is the nonimmigrant visa, 
        which can be obtained from any of the 211 American consulates 
        around the world.\2\ Travelers holding nonimmigrant visas 
        represent the overwhelming majority of individuals entering the 
        U.S. Nonimmigrant visas are ideal for supporting attacks that 
        require brief or repeated trips to the United States. In fact, 
        all of the September 11 hijackers entered the United States in 
        this manner. The 19 terrorists received a total of 23 visas 
        from five different consular posts over a four-year period.\3\ 
        Terrorists can also enter the United States through the 
        permanent immigration system, obtaining a ``green card'' to 
        live in the country or become a naturalized citizen. One study 
        of 28 known militant Islamic terrorists found that 17 of them 
        were in the country legally, either as permanent residents or 
        as naturalized citizens.\4\ The prevalent use of identity theft 
        and false travel documents makes the current system 
        particularly vulnerable to abuse. In 2001, officials at border 
        crossing points seized over 100,000 falsified documents. Over 
        50 percent of these documents were border crossing cards, alien 
        registration cards, and fraudulent visas and passports.\5\ Such 
        materials have been used by terrorists. For example, one of the 
        perpetrators of the 1993 World Trade Center bombing entered the 
        country with a doctored passport.\6\ Thus, intelligence is 
        critical not only to keep suspected terrorists from 
        legitimately obtaining and using passports, but also to prevent 
        them from easily using falsified documents to travel into the 
        United States.
---------------------------------------------------------------------------
    \2\ In addition, 28 countries are part of the U.S. Visa Waiver 
Program, allowing their citizens to enter the U.S. for 90 days without 
a visa. For a list of countries and program details, see U.S. 
Department of State, Bureau of Consular Affairs, ``Visa Waiver Program 
(VWP),'' attravel.state.gov/vwp.html (October 16, 2003).
    \3\ U.S. General Accounting Office, Border Security: Visa Process 
Should be Strengthened as an Antiterrorism Tool, GAO-03-132NI, October 
2002, p. 6.
    \4\ Steven A. Camarote, The Open Door: How Militant Terrorists 
Entered and Remained in the United States, 1993-2001 (Washington, D.C.: 
Center for Immigration Studies, 2001), p. 19.
    \5\ U.S. General Accounting Office, Identity Theft: Prevalence and 
Links to Alien Illegal Activity, GAO-02-830T, June 25, 2002, p. 7.
    \6\ U.S. Department of Justice, The Potential for Fraud and INS's 
Efforts to Reduce the Risks of the Visa Waiver Program, Inspection 
Report I-99-10, March 1999.
---------------------------------------------------------------------------
        <bullet> Second, infectious diseases,\7\ invasive species, 
        other environmental threats pose Health risks and could cause 
        environmental degradation, and economic damage by the 
        inadvertent or intentional introduction of diseases; non-
        indigenous species, including animals, plants, insects, and 
        single-cell organisms; or other environmental hazards. One 
        study estimated that damages and efforts to control invasive 
        non-indigenous species already cost the United States $137 
        billion per year, more than the cost of recovery from the 9/11 
        attacks.\8\
---------------------------------------------------------------------------
    \7\ The potential for diseases to spread rapidly is increasing. 
There are number of factors driving this trend including the growth of 
global trade that spreads diseases, the rise of pathogens resistant to 
antibiotics and other antimicrobial drugs, demographic changes, 
population growth and migration, and deteriorating public health 
infrastructure worldwide. Executive Office of the President, Office of 
Science and Technology, National Science and Technology Council, Global 
Microbial Threats in the 1990s (September 13, 2000) p. 2, at 
www.ostp.gov/CISET/html/3.html. See also George Fidas remarks before 
the International Disease Surveillance and Global Security Conference, 
Stanford University, Stanford, California, May 11-12, 2001, p. 8; David 
F. Gordon, et al., The Global Infectious Disease Threat and Its 
Implications for the United States (Washington, DC: National 
Intelligence Council, 2000), passim.
    \8\ David Pimentel, et al., ``Environmental and Economic Costs 
Associated with Non-Indigenous Species in the United States,'' June 12, 
1999, np, at www.news.cornell.edu/releases/Jan99/species_costs.html.
---------------------------------------------------------------------------
        <bullet> Third, as a component of America's borders, we cannot 
        over estimate the importance and vulnerability of the maritime 
        domain. About 95 percent by volume of U.S. overseas trade 
        transits the waterways and the exclusive economic zone bounding 
        the United States. In addition, many major population centers 
        and critical infrastructure are in close proximity to U.S. 
        ports or are accessible by waterways. Equally troubling are the 
        prospects for criminals and terrorists to use the maritime 
        domain for the conveyance of illicit goods and services. Nor 
        are just the hundreds of ports of entry into the United States 
        a concern. Coastal areas between the ports are perhaps even 
        more vulnerable to exploitation.\9\ Finally, as land borders 
        and commercial air transport become more secure, criminals and 
        terrorists will increasing look to the maritime domain as an 
        attractive means to bring bad things to America's shores.
---------------------------------------------------------------------------
    \9\ The maritime sector is a preferred option for drug smugglers, 
as well as the smuggling and trafficking of people. The voluntary or 
involuntary movement of people across national boundaries has become 
the world's fastest growing criminal activity and its continued growth 
will ensure its prominence in the future maritime environment. U.S. 
National Intelligence Council, Growing Global Migration and its 
Implications for the United States (Washington, D.C.: National 
Intelligence Council, March 2001). In addition, drug smuggling 
frequently employs noncommercial vehicles such as small, fast, private 
boats with concealed compartments capable of storing 30-70 kilograms of 
material and delivers payloads over the shore rather than using 
conventional port facilities. Office of National Drug Control Policy, 
Measuring the Deterrent Effect of Enforcement Operations on Drug 
Smuggling, 1991-1999 (August 2001), p. 1.
---------------------------------------------------------------------------
        <bullet> Fourth, securing the transport of material goods, 
        services, and people across the border is not only important 
        for keeping out terrorists and the instruments of terror. 
        Equally vital to national security is maintaining the free-flow 
        of legitimate commerce. Many American industries, for example, 
        rely on ``just in time'' movement of goods and services. Quick 
        and responsive delivery lessens the need to have large 
        stockpiles on hand, thus reducing operating costs.\10\ 
        Increased security that delays the delivery of products can 
        negate the advantages of inventories that are managed by the 
        speed that orders are filled rather the size of a company's 
        warehouse. For instance, in the wake of the 9/11 attacks 
        security at the borders and Canada was significantly upgraded. 
        As a result, many truckers were delayed at border crossings for 
        several hours. Since many truckers are only permitted to drive 
        10 hours per day, significant delays at the border can add an 
        extra day to delivery time. After the attacks on the World 
        Trade Center, Ford Motor Company idled five U.S. manufacturing 
        plants because of slow delivery from parts suppliers in 
        Canada.\11\ The increased cost of transporting or stockpiling 
        goods is not the only concern. Many commercial enterprises, 
        such as farming and tourism, rely on the import of foreign 
        nationals for seasonal work. Any screening process that slows 
        the flow of people and material will add to the cost that 
        threats impose on the United States.
---------------------------------------------------------------------------
    \10\ For an introduction to just-in-time supply management, see B. 
Modarress and Abdolhossein Ansari, Just-in-Time Purchasing (New York: 
The Free Press, 1990).
    \11\ Joseph Martha, ``Just-in-Case Operations,'' Warehouse Forum, 
Vol. 17, No. 2 (January 2002), np, at www.warehousing-forum.com/news/
2002_01.pdf.

Moving in the Right Direction
    In the wake of the September 11 attacks, Congress and the 
Administration have made significant efforts to enhancing the security 
of commerce and travel across U.S. borders. The following initiatives 
are particularly noteworthy:
        <bullet> First, the USA PATRIOT Act required the Federal Bureau 
        of Investigation (FBI) to share information in its National 
        Crime Information Center with immigration services and the U.S. 
        Department of State.\12\ It also instructs the Attorney General 
        and the Secretary of State to develop a biometric \13\ standard 
        for verifying the identity of visa applicants and bearers of 
        visas and passports, as well as querying law enforcement 
        databases.\14\
---------------------------------------------------------------------------
    \12\ The National Criminal Investigation Center (NCIC) is a 
computerized index of criminal justice information that is maintained 
by the FBI and available to federal, state, and local law enforcement 
and other criminal justice agencies. The database includes the agency's 
Interstate Identification Index (criminal history information); Wanted 
Persons File; Missing Persons File; Unidentified Persons File (to 
cross-reference unidentified bodies against records in the Missing 
Persons File); Foreign Fugitive File; and Violent Gang/Terrorist File 
(used to identify criminal gangs and their members to local, state, and 
federal law enforcement). The database also includes the U.S. Secret 
Service (now part of the Department of Homeland Security) Protective 
File, which maintains names and other information on individuals who 
are believed to pose a threat to the President. The law directs the 
agency to share information in the Interstate Identification Index and 
the Wanted Persons File as well as other files as agreed to by the 
Attorney General and the agency.
    \13\ Biometrics are methods of identifying a person based on a 
physiological or behavioral characteristics, including the person's 
face, fingerprints, hand geometry, handwriting, iris, retina, veins, 
and voice.
    \14\ The Enhanced Border Security and Visa Reform Act of 2002 
reduces from two years (as enacted in the USA PATRIOT Act) to 15 months 
the period after which the President must certify biometric standards 
for identifying aliens seeking admission into the U.S. and from 18 
months to one year the period after which the President must first 
report to Congress on the progress in implementing the use of 
biometrics.
---------------------------------------------------------------------------
        <bullet> Second, the Homeland Security Act of 2002 transferred 
        the Immigration and Naturalization Service (INS) to the 
        Department of Homeland Security (DHS). The act places the 
        responsibility for providing immigration-related services and 
        benefits under the DHS's Bureau of Citizenship and Immigration 
        Services (BCIS) while the DHS's Bureau of Customs and Border 
        Protection has assumed the border security functions of the 
        INS. The act also established an integrated investigative 
        force, the U.S. Immigration and Customs Enforcement (ICE).
        <bullet> Third, the Enhanced Border Security and Visa Entry 
        Reform Act called for intelligence sharing and visa issuance 
        and monitoring through several important measures including 
        requiring law enforcement and intelligence agencies to share 
        relevant information with State and the BCIS; directing BCIS to 
        integrate its data systems into an interoperable, interagency 
        system; assigning the DHS the primary responsibility for 
        developing an overarching information architecture to share 
        immigration and intelligence data; and requiring the 
        implementation of an integrated entry and exit database.
        <bullet> Fourth, the Maritime Transportation and Security Act 
        (MTSA) required the establishment of maritime security 
        committees and security plans for facilities and vessels, and 
        strengthened and standardized security measures for domestic 
        port security teams including federal, state, local, and 
        private authorities.
        <bullet> Fifth, the Administration's establishment of two 
        intelligence integration centers--the Terrorist Threat 
        Integration Center (TTIC) and the Terrorist Screening Center 
        (TSC)--will help to consolidate terrorist information into 
        centralized databases so that the information can be accessed 
        by local, state, and federal authorities.
    Among all the ongoing activities to improve border security these 
initiatives are particularly important because they recognize that 
border security means much more than securing the border. They provide 
the foundation for building a layered and coordinated approach to the 
challenge of protecting the border.
    The Bush Administration's approach to homeland security rightly 
eschews the notion that there is a single, ``silver bullet'' solution 
to stopping terrorism. Rather, the President has adopted a multi-
layered system that assumes no one security initiative will suffice. 
This strategy provides multiple opportunities to thwart or mitigate 
terrorist acts. Security is not provided by a single initiative, but by 
the cumulative effect of all the homeland security programs. For 
example, a terrorist might be discovered by an overseas intelligence 
operation while applying for a visa, by screening an international 
flight manifest, during inspection at a port of entry, or during a 
domestic counterterrorism investigation. Thus, improving security 
requires ensuring that each layer of the system is sufficient to do its 
part of the job and that efforts are complementary.

The Next Steps
    Great strides in improving the security of the border will only be 
made when the components supporting border security are wedded into a 
``system of systems'' or network-centric approach to homeland security. 
Network-centric operations generate increased operational effectiveness 
by networking activities, decision makers, and field officers to 
achieve shared awareness, increased speed of command, higher tempo of 
operations, greater efficiency, increased security, and a degree of 
self-synchronization. In essence, it means linking knowledgeable 
entities in an effort to coordinate a comprehensive national border 
security plan. Such a system might produce significant efficiencies in 
terms of sharing skills, knowledge, and scarce high-value assets; 
building capacity and redundancy in the national border security 
system; and gaining the synergy of providing a common operating picture 
to all involved and being able to readily share information.
    In building a ``system of systems'' approach to border security, 
both Congress and the Administration must work toward integrating 
border control functions, immigration enforcement, transnational supply 
chain security, and maritime domain awareness into a more seamless web 
of homeland security activities.
    There are measures that Congress and Administration should consider 
now for building toward a ``systems of systems'' approach to border 
security. Our research at The Heritage Foundation suggests some 
initiatives that should be considered as building blocks toward a more 
integrated system for protecting the homeland. They include the 
following:
    Rethink Responsibilities for Visa Services. Congress should 
consolidate all visa activities in a single government organization. 
While the Homeland Security Act of 2002 gave the Secretary of the DHS 
exclusive authority to issue regulations and administer the visa 
program, consular officers remained part of the Department of State. 
This was a mistake. For the DHS to fulfill its responsibilities in the 
visa process and because of the national security aspect of visa 
approvals, the Bureau of Consular Affairs Office of Visa Services 
should be placed under the DHS. Moving the Visa Office to the DHS would 
enable the DHS to focus on tightening, improving, and more broadly 
utilizing the visa function to meet the exigencies of homeland 
security.\15\
---------------------------------------------------------------------------
    \15\ James Jay Carafano and Ha Nguyen, ``Better Intelligence 
Sharing for Visa Issuance and Monitoring: An Imperative for Homeland 
Security,'' Heritage Foundation Backgrounder No. 1699, October 27, 
2003, at www.heritage.org/Research/HomelandDefense/BG1699.cfm.
---------------------------------------------------------------------------
    Improving Innovations in Intelligence Sharing. The Administration 
should consolidate the TTIC and the TSC under the DHS. Since May 2003, 
two intelligence-sharing centers have been established by the 
Administration. The TTIC is designed to be a central location where all 
terrorist-related intelligence--both foreign and domestic--is gathered, 
coordinated, and assessed. It is composed of elements of the FBI, CIA, 
Department of Defense, Department of Homeland Security, Department of 
State, and other intelligence agencies. The TSC has responsibility for 
coordinating information from all terrorist watch lists and provide 
around-the-clock access to local, state, and federal authorities. 
Although the establishment of the TTIC and the TSC are significant 
steps in the integration of intelligence data, these centers have been 
placed under the Director of Central Intelligence (DCI) and the FBI 
respectively. This locates the centers away from the agency that is 
most in need of the information they provide--the DHS.
    The structure for intelligence sharing between agencies should be 
based on a consumer-driven model. The DHS was designed as the biggest 
consumer of intelligence information and has the most at stake in terms 
of intelligence sharing and dissemination, particularly in the areas of 
visa issuance and monitoring. The current arrangement leaves the DHS as 
little more than just another intelligence end user, competing with 
other members of the national security community to ensure that its 
priority requirements are met. Thus, the TTIC and the TSC should be 
placed under the DHS both to ensure the best possible establishment and 
operation of these centers and to make certain that the DHS has the 
tools and ability to fulfill its responsibilities.\16\
---------------------------------------------------------------------------
    \16\ James Jay Carafano, ``Terrorist Intelligence Centers Need 
Reform Now,'' Heritage Foundation Executive Memorandum No. 930, May 10, 
2004, at www.heritage.org/Research/HomelandDefense/em930.cfm.
---------------------------------------------------------------------------
    Improving State and Local Support for Counterterrorism Immigration 
Investigations. The DHS and the states should pursue, and Congress 
should support, the use of Section 287 of the Immigration and 
Naturalization Act (INA) as a mechanism for state and local law 
enforcement to enforce the immigration aspect of border security. 
Section Sec. 287(g) of the INA provides authority for state and local 
enforcement to investigate, detain, and arrest aliens on civil and 
criminal grounds. Officers governed by a Sec. 287(g) agreement must 
receive adequate training and operate under the direction of federal 
authorities. In addition, in a civil lawsuit, the state law enforcement 
officers would be considered to have been acting under federal 
authority, thereby shifting liability to the federal government and 
providing additional immunity for the state law enforcement officers 
enforcing federal laws.\17\
---------------------------------------------------------------------------
    \17\ James Jay Carafano, ``No Need for the CLEAR Act: Building 
Capacity for Immigration Counterterrorism Investigations,'' Heritage 
Foundation Executive Memorandum No. 925, April 21, 2004, at 
www.heritage.org/Research/HomelandDefense/em925.cfm.
---------------------------------------------------------------------------
    The existing Sec. 287(g) pilot program with the State of Florida 
could serve as a national model. Under Sec. 287(g), Florida signed a 
memorandum of understanding (MOU) in 2002 to allow a small group of 
Florida law enforcement officers to conduct federal immigration 
investigations. Florida specifically limits its officers' civil 
immigration enforcement to situations in which they are part of a 
security or counterterrorism operation that is supervised by ICE. As 
the Florida MOU demonstrates, Sec. 287(g) provides adequate protection 
to states and their law officers while requiring that well-trained 
officers conduct immigration investigations. It also allows states to 
tailor the use of their officers to essential domestic counterterrorism 
missions.
    Three initiatives would further enhance state and federal 
counterterrorism efforts through Sec. 287(g) programs:
        1. The DHS should encourage other states to adopt programs 
        based on the Florida model,
        2. Congress should appropriate funds for the DHS to expand 
        Sec. 287(g) initiatives, and
        3. States should use the Florida initiatives as a model for 
        expanding their own domestic counterterrorism programs and 
        improving cooperation with federal authorities.
    Expanding the DHS Law Enforcement Capacity. The DHS needs more 
aggressive programs to expand law enforcement capacity within the 
agency, establish closer coordination within the components of ICE, and 
expand the Coast Guard's law enforcement capabilities. In the end, 
investments in domestic counterterrorism programs and intelligence and 
early warning may provide much greater security for value than physical 
security at the border or additional critical infrastructure protection 
at ports-of-entry. Key to enhancing the DHS capability to performing 
these functions will be growing its capacity to perform law enforcement 
operations.
    It is not clear that Coast Guard and ICE law enforcements programs 
are being developed in tandem to create the objective law enforcement 
corps needed for border security. In fact, it is not apparent that the 
DHS has defined its long-term strategic needs in this area or that they 
dovetail with other ongoing federal and state efforts to expand the 
national capacity to conduct domestic counterterrorism.
    One area that warrants particular attention is the future plans for 
the Coast Guard's marine investigative services and its sea marshall 
assets. Since 9/11, many of the local investigation and inspections 
arms of the Coast Guard's Marine Safety Offices have significantly 
shifted their focus to supporting domestic counterterrorism efforts. In 
addition, the Coast Guard created the sea marshals program to create a 
cadre of specially trained law enforcement officers to escort high-risk 
vessels into port. While the Coast Guard law enforcement initiatives 
are a positive effort, there is little sign that the service is 
creating a comprehensive human capital plan, including the leader 
development training and education that are needed to fully exploit the 
potential of these programs.
    Consolidate and Integrate DHS Aviation Support Activities. To 
achieve greater efficiency, flexibility, and coordination for domestic 
airspace security and support operations, ICE's Office of Air and 
Marine Interdiction (OAMI) should be merged with Bureau of Customs and 
Border Protection (CBP) aviation assets. Additionally, the aviation 
support requirements and acquisition for the OAMI and the U.S. Coast 
Guard should be integrated to the maximum extent possible. Building 
greater aviation support capacity and flexibility into the DHS is 
critical to the border security missions, as well as supporting other 
federal law enforcement activities, and lessening Defense Department 
requirements for reserving air defense assets of missions related to 
homeland defense protection.
    The OAMI and the CBP already work closely together in a number of 
aviation missions. The OAMI currently has a Northern Border Initiative 
that established five OAMI air unites at strategic locations along the 
Northern Border. This initiative melds assets and operations with the 
Bureau of Customs and Border Protection (CBP) and will provide a law 
enforcement presence within one hour of being notified, 24x7, of 
suspected incursions along the Northern Border. Integrating OAMI with 
other CBP assets would only further enhance the DHS's capabilities to 
conduct these kinds of operations.
    Over the long term, fiscal concerns will no doubt play the 
significant role in determining the extent to which the DHS aviation 
component can be expanded to meet a range of mission requirements. 
Aviation support and acquisition requirements invariably consume a 
significant portion of operations and maintenance budgets. Here, the 
department can profitably learn a lesson from the Department of Defense 
(DOD), which maintains four air forces optimized for different tasks at 
great expense. As a result, today the lion's share of defense 
procurement will be for modernizing its air fleet of combat, transport, 
and support craft.\18\ In addition to the cost of developing and 
maintaining separate air arms, the DOD has had to invest considerable 
resources in creating the capacity to integrate these arms effectively. 
Effective consolidation now will enable the DHS to avoid similar 
challenges in the coming years.
---------------------------------------------------------------------------
    \18\ Richard L. Kugler, ``The Defense Budget: Meeting Requirements 
with Constrained Resources,'' in QDR 2001: Strategy-Driven Choices for 
America's Security, ed. Michele A. Flournoy (Washington, D.C.: National 
Defense University Press, 2001), pp. 125-129.
---------------------------------------------------------------------------
    Place Greater Emphasis on Private-Sector Solutions for Supply Chain 
Security. The DHS should pursue additional initiatives to encourage the 
private sector to improve security in transnational supply chains. As 
much as possible, the DHS needs to move away from making the border a 
bottleneck by using passage of the border as the place to screen the 
vast amounts of commerce entering and leaving the United States. 
Current efforts to achieve this goal rely heavily on two programs, the 
Container Security Initiative (CSI) and the Customs-Trade Partnership 
Against Terrorism (CTPAT). It may not, however, be strategically 
prudent to pursue the current combination of measures alone. Layered 
security, after all requires not placing all the eggs in ``one security 
basket.''
    The MTSA required the Secretary of Transportation to establish a 
program to evaluate and certify secure systems of intermodal 
transportation. It did not direct that these programs would have to 
necessarily be conceived or implemented by the federal government. In 
order to reduce risk, as well as exploit the capacity of the 
marketplace to create innovative and effective solutions, the DHS might 
consider establishing mechanisms to allow the private sector to develop 
and implement its own alternatives to the CSI/CTPAT regime.
    Improving Congressional Oversight. Congress should create permanent 
committees in both houses to provide oversight for the Department of 
Homeland Security. While security remains a cooperative government 
effort, we needed a dedicated Homeland Security Department. The 
rationale for the initiative paralleled the thinking behind the 
formulation of the 1947 National Security Act, consolidating key assets 
into one big, powerful organization and creating the means to 
orchestrate that department's efforts with other federal activities. 
Large, centralized organizations have drawbacks, the most obvious being 
the problems encountered in managing a vast bureaucracy. But big 
organizations can also have great strengths, providing unity of 
purpose, a wealth of capabilities, and economies of scale, and 
fostering a common institutional culture and practices that build trust 
and confidence and facilitate coordinated action.
    The department now also faces the same challenges that confronted 
the Pentagon in 1947. In terms of efficiencies and improved 
coordination, the low-hanging fruit of corralling over 180,000 
employees into one agency has been picked. What is left to be done is 
the hard work, the nuts and bolts of building a real department--
implementing human capital, acquisition, and information technology 
programs; building security systems that match the national strategy; 
and standing watch every day against terrorist attacks. Oversight of 
these activities requires standing committees with the expertise and 
experience to see the big picture and dig into the details. No area 
demands more attention to ensuring that disparate programs work 
together than the complex challenges of border security.
    The House Select Committee on Homeland Security has already 
demonstrated that there could be value added in consolidating oversight 
in a single committee. They've held productive hearings and rapidly 
assembled a capable staff with the energy, expertise, and dedication 
that make for good congressional oversight. The global war against 
terrorism will be a long, protracted conflict. We need a Department of 
Homeland Security that is built and run to protect Americans today, 
tomorrow, and 10 and 20 years from now. We need a Congress that is 
properly organized to support this effort. Leaving jurisdiction for the 
department's homeland security programs fragmented among a dozen 
committees runs counter to the intent behind the Homeland Security Act 
of 2002: Either merge functions, change cultures, and focus the federal 
government on homeland security or turn the initiative over to the 
terrorists.
    Both houses of Congress should establish permanent homeland 
security committees.

Conclusion
    A layered and coordinated approach is the only strategic solution 
that promises long-term success for protecting the U.S. borders. 
Congress and the Administration must work together to turn a number of 
promising initiatives into a comprehensive system of systems that will 
serve to deter, disrupt, and prevent acts of transnational terrorism 
upon the United States. I believe several of the building blocks 
suggested here could be important contributions to that effort.

    Ms. Granger. [Presiding.] Thank you very much.
    Mr. Johnson?

   STATEMENT OF RANDEL JOHNSON, THE UNITED STATES CHAMBER OF 
           COMMERCE AND AMERICANS FOR BETTER BORDERS

    Mr. Johnson. Thank you, Madam Chairwoman. I would like to 
thank the subcommittee for this opportunity to talk about a 
wide range of issues, of which there are many in this area. Let 
me simply note with regard to my background that I am Vice 
President at the U.S. Chamber for Immigration, Labor and 
Employee Benefits, but more particularly I did represent the 
Chamber on the Data Management Improvement Act Task Force which 
studied issues at the borders for over 2 years. We did submit 
two separate reports to Congress. Unfortunately, they were 
probably longer than most people would care to look at, but 
they do hold a lot of interesting data there for the 
subcommittee.
    My written testimony is quite lengthy. It covers issues 
ranging from cargo processing to the need for low-risk 
prescreened traveler programs such as SENTRI and NEXUS, to 
problems that the business community is encountering in visa 
processing, to frankly concerns that we have over the upcoming 
land port deadlines under US-VISIT in December, 200. I do also 
wish to note our strong support for the legislation that just 
passed the House, which would extend the October deadline under 
the visa waiver program for biometric encoded passports.
    With regard to low-risk, prescreened traveler programs, I 
just want to emphasize that obviously these have to be part of 
any solution to our border security, if that solution is also 
going to take into consideration our need to keep commerce 
moving. The volume of our traffic at our borders, which I think 
astounds people who have not been there before, I think on its 
face indicates that this is really an unquestionable element of 
any program. We strongly support the committee's efforts to 
expand and implement things like NEXUS and SENTRI.
    Obviously, technology must play a part, but I think we are 
kidding ourselves if we are going to look at it as a magic 
panacea. There is always going to be human error involved, and 
I think we are a long ways off from any kind of technology 
which will allow us to thoroughly check every traveler equally. 
Therefore, we have to have some kind of low-risk, prescreened 
traveler program to separate out the stream of most travelers 
from those who have to be looked at more carefully than others. 
Technology is great, but it is not going to be a solution, and 
we should not kid ourselves.
    With regard to visa delays in US-VISIT, I just want to say 
that we have tried to document the problems the business 
community is having with visa delays. We are very encouraged by 
the fact that both Secretary Powell and Secretary Ridge 
recently have acknowledged that there are glitches in the 
system. Secretary Ridge has kicked off a system of review to 
try and see where those glitches are and see where they can be 
resolved without impairing security.
    Considering US-VISIT, let me just say that with regard to 
our border communities, there is a lot of concern out there 
still with regard to the December deadline. Things are going 
fairly well at the airports. There are some complaints, but 
they are going fairly well. But at the land ports, as the 
December 2004 deadline approaches, there is just a skepticism 
out there when they hear officials from DHS talking about how 
the system will work and there will be no impact on traffic. It 
sounds great, but when it comes to thinking through how that 
reality is going to be translated to each port, and which lanes 
are going to have to be torn up, how are dedicated lanes going 
to be established, there is a lot of skepticism out there. I 
think the DHS just simply has to get out there community by 
community and explain how they are going to get this done 6 
months from now.
    I want to emphasize, as you well know, that there is more 
than dollars and cents here involved. If you talk to these 
border communities, as many of you have, it is a way of life 
that is involved. It is the community structure that is so 
intertwined with border commerce back and forth that if this is 
not done right, a lot of these communities are going to go down 
the drain. So the stakes are very high, and US-VISIT has to be 
done right. There is no room for error. In that regard, we hope 
DHS specifically moves beyond the rhetoric quickly and moves to 
pilot projects to test under realistic conditions what they 
intend to implement in December of 2004.
    Let me just note finally that I know the Chamber and other 
people in the business community will be unfairly criticized at 
times, and inaccurately, for elevating profits, jobs and 
commerce over national security. That is not the case. We 
acknowledge we have to all work together to get this system 
done right. Of course, the enabling statute that established 
the Department of Homeland Security, which we strongly 
supported, recognizes that the Department in achieving national 
security also must look at economic security. It must keep 
border commerce moving. I believe the word is in a ``speedy 
fashion.'' I am not sure who put the ``speedy'' in, but in a 
speedy fashion. That is the concept. I think that we all sort 
of have to move together and get the job done. We are willing 
to work with DHS to do that, and the Department of State.
    Finally, I just hope that as these issues come rolling out, 
that the Congress can try to treat them in a bipartisan manner, 
because the stakes are really too high to do otherwise. With 
that, Mr. Chairman, I have 17 seconds left.
    [The statement of Mr. Johnson follows:]

Prapered Statement of the U.S. Chamber of Commerce by Randel K. Johnson

    Mr. Chairman, members of the Committee, I would like to thank you 
for the opportunity to testify today on border security and economic 
issues. I am Randel K. Johnson, Vice President for Labor, Immigration 
and Employee Benefits at the United States Chamber of Commerce.
    The U.S. Chamber of Commerce is the world's largest business 
federation, representing more than 3 million businesses. The Chamber's 
federation includes state and local chambers throughout the United 
States and also includes 98 American Chambers of Commerce abroad 
(AMCHAMs) located in 86 countries, which represent American companies 
and individuals doing business overseas as well as foreign companies 
with significant business interests in the United States. Because of 
their role at the crossroads of international business, we believe the 
AMCHAMs are excellent barometers of the strength of our international 
relationships.
    Chamber members with interest in the secure and efficient movement 
of legitimate travel and trade at our borders include companies and 
organizations in the travel and tourism industries, companies that 
import or export goods and services through our ports of entry, 
companies that do business with international customers and clients, 
and companies that employ an international workforce. Chamber members 
on both the U.S.-Mexico and U.S.-Canada borders, including local 
chambers of commerce and American Chambers of Commerce abroad that 
conduct business between the United States and other countries, also 
have a great interest in the implementation and efficiency of our 
border security.
    I would also like to note that I am the chair of the Americans for 
Better Borders (ABB) coalition, which unites regional business 
organizations and a wide array of companies and national trade 
associations representing manufacturing, hospitality, tourism, 
transportation, recreation and other industry sectors to work to ensure 
that the efficient flow of commerce and tourism across our borders 
while addressing national security concerns.
    The Chamber and ABB coalition were instrumental in the creation and 
passage of the Data Management Improvement Act (DMIA) of 2000, which 
set the current deadlines for implementation of the US-VISIT entry-exit 
program and established the DMIA Task Force, a public-private group 
chartered in 2001 by the Attorney General to evaluate and make 
recommendations on how the flow of traffic at United States airports, 
seaports, and land border ports of entry (POE) can be improved while 
enhancing security. I was privileged to be named by the Attorney 
General to represent the U.S. Chamber on the Task Force in 2002 and to 
serve on the Task Force and sign its two reports to Congress, one in 
2002 and one in 2003.
    We are all aware of the new environment in which not only business, 
but all of us must live. The need for security to protect us from 
another horror such as September 11 is very real. The U.S. Chamber has 
pledged its support for the broad ranging efforts to secure our 
homeland, was involved in the shaping of the legislation which created 
the Department of Homeland Security, and ``key voted'' in support of 
the legislation in both the House and the Senate.
    The U.S. Chamber agrees with the Committee's theme for this 
hearing, that there must be a layered and coordinated approach to our 
nation's security to be truly successful. Border security must start 
before the traveler arrives at our ports of entry, and we must use 
technology to make the best use of our security resources to focus on 
high-risk or unknown travelers and expedite legitimate, low-risk and 
frequent trade and visitors. We need to have both secure borders and an 
efficient and predictable visa and entry process. The Chamber strongly 
supports these policies; I only wish to emphasize that we are concerned 
by the way these policies are currently being implemented and by the 
uncertainty of what they will look like in the future.
    When Congress created the Department of Homeland Security in 2002, 
it saw fit to include two provisions we strongly supported: creating a 
special office in charge of reaching out to the private sector (a 
particularly important function as the Department got up and running) 
and making clear that part of the Department's mission is to include 
consideration of America's economic security as the Department strives 
also to protect our national security. These provisions, along with 
those in Title IV of the implementing legislation relating to borders 
and transportation which reflect the need, consistent with national 
security, to ``ensure the speedy, orderly, and efficient flow of lawful 
traffic and commerce,'' I believe went a long way in addressing 
concerns at the time that the new Department would pursue a ``fortress 
America.'' That is, many were concerned that the new Department would 
pursue aggressive security measures without weighing the negative 
economic impact on the country as a whole that could result from 
significant increases in barriers and delays at our borders. As Chamber 
President and CEO Tom Donohue has said, we need to ensure ``that in the 
pursuit of security we don't lose our mobility and our economic 
freedom. Mobility and security must go hand-in-hand. Sacrifice one for 
the other and we'll pay a horrific price.''
    And, indeed, Secretary Ridge at the Department of Homeland 
Security, Secretary Powell at the Department of State and even 
President Bush, have repeatedly reassured those of us outside that the 
government will continue to search for ways to both improve security 
and to expedite, or at least not significantly hinder, legitimate 
international commerce, travel and immigration.
    On the cargo side, we must say that the government has made a great 
start on meeting the dual goals of security and efficiency, through 
programs such as the Customs-Trade Partnership Against Terrorism (C-
TPAT), the Free and Secure Trade program (FAST), and the Container 
Security Initiative (CSI). C-TPAT is a voluntary program by which 
businesses (including importers, carriers, brokers, warehouse operators 
and manufacturers) can work with Customs and Border Protection (CBP) to 
ensure the integrity of their security practices and receive the 
benefit of reduced border processing. The FAST program is a bilateral 
initiative between the United States and Canada that builds on the C-
TPAT model and Canada's similar program, the Partners in Protection 
(PIP). C-TPAT and PIP carriers, drivers and importers can receive 
expedited processing at the U.S.-Canada border. The CSI is a program in 
which teams of CBP officers are deployed to participating foreign sea 
ports to work with officials of the host government to target cargo 
containers bound for the U.S. that might pose a threat. These programs 
have successfully ``pushed out the border,'' engaged the cooperation of 
the private sector, and added to the risk-based, layered approach that 
is the topic of this hearing and we commend CBP for their 
implementation.
    However, not nearly as much progress has been made on the travel 
side. Only a few programs, such as the NEXUS and SENTRI programs, use 
the same risk-based pre-clearance strategies that have been implemented 
in the cargo area. NEXUS and SENTRI successfully enroll thousands of 
border crossers, who voluntarily undergo pre-clearance and background 
checks--in the case of NEXUS by both the United States and Canada--and 
prove themselves to be low-risk crossers.\1\ By doing so, they are able 
to use dedicated lanes at certain border crossings and speed their 
travel. These two programs are successful models of meeting the dual 
missions of security and efficiency. By identifying these individuals 
as low-risk, placing them through thorough security checks prior to 
their arrival at the border, and then allowing briefer inspections at 
the ports of entry, these programs model the layered approach that we 
support.
---------------------------------------------------------------------------
    \1\ The NEXUS program issues individual passenger radio frequency 
(RF)-enabled proximity cards for frequent travelers on the northern 
border. The SENTRI program operates on the southern border and provides 
an RF-enabled vehicle tag with associated data for all passengers 
registered within the vehicle. Over the next couple of years, the two 
programs will be merged and the NEXUS individual passenger-based 
technology will replace SENTRI on the southern border. Source: 
Department of Homeland Security, Request for Proposals for US-VISIT 
Program Prime Contractor Acquisition, RFP No. HSSCHQ-04-R-0096, 
November 28, 2003, p. 23.
---------------------------------------------------------------------------
    In fact, the DMIA Task Force in its 2002 report emphasized the 
expansion of these programs as integral to the eventual success of any 
entry-exit system at the land borders. We understand that a similar 
program for air travel from Canada (NEXUS Air) is in development, and 
we strongly encourage CBP to speed such a program to the traveling 
public. We also encourage the Committee, as it is considering the first 
ever authorization legislation for the Department of Homeland Security, 
to not only encourage these types of programs through specific 
authorizing language, but also provide resources for their expansion, 
maintenance and improvement to encourage as many as possible to enroll.
    CBP Commissioner Bonner in March 2004 announced a new initiative 
that will also build on this layered approach, the Immigration Security 
Initiative (ISI). Based on reports from CBP, the ISI will post teams of 
CBP officers at major international airports around the world from 
which travelers embark to the United States. Much like their 
counterparts in the Container Security Initiative, the ISI teams will 
work with foreign governments and law enforcement, as well as use its 
own resources to target inadmissible persons and prevent them from 
boarding planes to the U.S. As a ``middle layer'' of security between 
the consular post and the port of entry, this program has the promise 
to further ``push out our borders'' for passengers.\2\
---------------------------------------------------------------------------
    \2\ ``Immigration Security Initiative: New Layer in Homeland 
Defense,'' Customs and Border Protection Today, May 2004, found at 
http://www.cbp.gov/xp/CustomsToday/2004/May/isi.xml.
---------------------------------------------------------------------------
    We support the concepts underpinning the ISI; however, the success 
of this program to facilitate legitimate travelers and reduce 
unnecessary inspections and screening at the ports of entry will depend 
heavily on the validity and detail of the targeting information, data 
and intelligence used to flag inadmissible persons. We would want to be 
sure that travelers will have an expedited means of clearing up any 
``false'' negatives, to ensure their continued travel to the United 
States as quickly as possible. As important as such partnerships and 
targeting may be, the best assurance of stopping inadmissible persons 
is full pre-inspection, where actual U.S. inspections and admissions 
are recorded at foreign airports prior to departure. These programs are 
currently in place in several airports in Canada, Ireland, the 
Caribbean and elsewhere, and we would encourage CBP to evaluate 
expansion of these programs as well.
    However, in spite of these successes and new initiatives for 
travelers, they are still quite limited. For the majority of travelers, 
there is a ``one-size-fits-all'' approach to screening and security. 
That is, everyone is seen as a risk. I believe there is concern among 
those of us in the private sector, the traveling public and border 
communities, that we are not much closer to finding the right balance 
between security and facilitation. Constantly tightening policy 
responses and approaching deadlines for still greater changes only 
increase the concern. These changes include: increased visa referrals 
for security checks, requirements for in-person visa interviews, 
upcoming deadlines in October of this year for Machine Readable 
Passports and biometrics for Visa Waiver Program (VWP) visitors, the 
inclusion of these visitors in September in the US-VISIT system at air 
and seaports, which includes fingerprinting more than 13 million 
visitors annually from countries around the world, and full 
implementation of US-VISIT at the 50 busiest land borders in December 
2004 and the remaining land ports in 2005.\3\
---------------------------------------------------------------------------
    \3\ For a useful overview of various deadlines, see GAO Report 03-
563, ``Homeland Security Needs to Improve Entry Exit System Expenditure 
Planning,'' pages 48-50.
---------------------------------------------------------------------------
    Indeed, there is a growing perception abroad and in border 
communities that, in spite of the rhetoric, America is turning into a 
fortress. And this perception, based on reality, is hurting American 
businesses. A recent study by eight business organizations estimated 
that visa problems alone have cost more than $30 billion to the economy 
in lost revenues and other indirect costs.\4\ And recent Department of 
Commerce data shows a drop of more than $17 billion in services trade 
surplus from 2000 to 2002, with a drop of $17.3 billion in travel 
exports between 2000 and 2003, and a more than $5 billion drop in 
passenger fares.\5\ Cross border visits along our land borders are also 
down. According to Department of Transportation data, inbound passenger 
vehicle crossings were down almost 20 million between 2000 and 2002 on 
the Canadian border, and down over 40 million across the U.S.-Mexico 
border. Between 2000 and 2002 inbound truck crossings at the U.S.-
Mexico border decreased almost 100,000, with a decrease of more than 
220,000 between 2000 and 2001. On the Canadian border, inbound truck 
crossings decreased almost 300,000 between 2000 and 2001, and are down 
100,000 from 2000 to 2002.\6\ And, as anyone in these border 
communities can tell you, fewer crossings means less business and heavy 
impacts to the economy.
---------------------------------------------------------------------------
    \4\ Do Visa Delays Hurt U.S. Businesses, Prepared by the Santangelo 
Group for the Aerospace Industries Association, the American Council on 
International Personnel, the Association for Manufacturing Technology, 
the Coalition for Employment through Exports, the National Foreign 
Trade Council, the U.S.-China Business Council, U.S.-Russia Business 
Council, and the U.S.-Vietnam Business Council, June 2, 2004, available 
at www.nftc.org.
    \5\ Source: Department of Commerce, Bureau of Economic Analysis, 
Balance of Payments (International Transactions) data, 1960-present at 
http://www.bea.doc.gov/bea/di/home/bop.htm.
    \6\ Source: Bureau of Transportation Statistics, Department of 
Transportation, available at http://www.bts.gov/programs/international/
border_crossing_entry_data/.
---------------------------------------------------------------------------
    We have met in the last year, and continue to meet with 
representatives from many stakeholders in border communities, including 
local chambers of commerce, businesses and community representatives 
both as part of my work on the DMIA Task Force and on behalf of the 
Chamber. As the December 2004 deadline for US-VISIT land border 
implementation approaches, there is a very strong feeling that the 
local communities and businesses have made their serious concerns about 
entry-exit procedures known to various people in the government (and 
us) but are wondering if there is a real understanding of the challenge 
and stakes involved. Although recent official descriptions of how the 
US-VISIT system will be implemented at land borders does indicate that 
the Department of Homeland Security is at least listening to these 
concerns, the border communities are still skeptical that the entry-
exit procedures embodied by US-VISIT can be put in place by December 
without a significant and negative impact on cross border traffic.
    This adverse impact is already being felt on the visa front. Our 
American Chambers of Commerce around the world report they are actually 
losing business to European and other competitors because of the 
difficulties in obtaining visas for their customers and clients, 
supporting the results of the study mentioned above. Impending changes 
to the VWP will disproportionately affect key American allies and 
trading partners such as the United Kingdom and Japan, both of whose 
governments have stated that, in spite of their best efforts, they will 
not be able to meet the October 26, 2004, deadline which will require 
VWP countries to begin issuing passports with biometric identifiers. In 
fact, the Department of State has stated it will not be able to issue 
U.S.-biometric passports until next year. We strongly support 
legislation to be voted on in the House this week that would extend the 
VWP deadline. This is an issue of the highest importance for U.S. 
companies doing business in the 27 countries in the VWP.
    Turning back to the borders, the DMIA Task Force submitted two 
reports to Congress, one in 2002 and one in 2003. The 2002 report 
focused on what was then the entry-exit system and detailed numerous 
challenges to implementing such a system, including the differentiation 
required for the modes of entry (land, sea, and air) and differences 
between the northern and southern land border environments. In 2003, 
the Task Force report detailed the significant challenges facing our 
ports of entry in terms of infrastructure and technology and the need 
for greater cooperation and coordination among federal agencies with 
border responsibilities, with state and local governments, and the 
private sector. Significantly, in reviewing the progress to date on the 
US-VISIT system in 2003, the Task Force report included the following 
recommendation:
        That the first phase at air and sea [Ports of Entry] be 
        reviewed and evaluated no later than 6 months after 
        implementation by an independent body. This evaluation must 
        consider the program's effect on national and economic security 
        and international trade and travel. Congress should consider 
        any recommendations from the independent review and evaluation 
        and also reconsider deadlines for all other entry-exit 
        statutory requirements. It is further recommended that any 
        mandates in this area receive appropriate funding.\7\
---------------------------------------------------------------------------
    \7\ Data Management Improvement Act Task Force Second Annual Report 
to Congress, Department of Homeland Security, December 2003.
---------------------------------------------------------------------------
    We note that no thorough evaluation of the air and sea 
implementation of US-VISIT has yet been done to our knowledge--and the 
deadlines for land implementation are fast approaching.
    The Chamber, its members, and the ABB coalition fully support the 
efforts of the Department of Homeland Security to improve the security 
at our ports of entry and borders and we recognize that the Department 
faces many difficult challenges. We do not oppose the US-VISIT system; 
the Department has worked hard over the last year to listen to the 
concerns of business and has made significant strides in adopting 
systems that attempt to balance the need for security and the continued 
facilitation of legitimate travel at our ports of entry. However, the 
U.S. Chamber and its members remain very concerned that, if the US-
VISIT system is implemented improperly, we risk serious economic harm 
by impeding the billions of dollars in cross-border trade (particularly 
at our land borders) and deterring the millions of legitimate visitors 
to our country, who also spend billions of dollars within our borders.
    Frankly, there is a concern that the government may be acting 
without sufficient planning and testing to ensure the systems will not 
adversely impact commerce and travel. And it is not an overstatement, 
given the enormity of our cross-border traffic, to say that there is 
literally no room for error. In fact, the recent GAO report on the US-
VISIT expenditure plan noted the lack of sufficient testing plans or 
structures.
        DHS has not employed rigorous, disciplined management controls 
        typically associated with successful programs, such as test 
        management, and its plans for implementing other controls, such 
        as independent verification and validation, may not prove 
        effective. More specifically, testing of the initial phase of 
        the implemented system was not well managed and was completed 
        after the system became operational. In addition, multiple test 
        plans were developed during testing, and only the final test 
        plan, completed after testing, included all required content, 
        such as describing tests to be performed. Such controls, while 
        significant for the initial phases of US-VISIT, are even more 
        critical for the later phases, as the size and complexity of 
        the program will only increase.\8\
---------------------------------------------------------------------------
    \8\ ``First Phase of Visitor and Immigration Status Program 
Operating, but Improvements Needed,'' General Accounting Office Report 
GAO-04-586, May 2004.
---------------------------------------------------------------------------
    We submitted comments to the Department of Homeland Security on its 
interim final rule implementing the US-VISIT requirements for visa 
travelers at air and seaports on February 4, 2004. Some of these 
comments have been echoed in the recent GAO report just cited. I would 
briefly like to highlight some of our concerns regarding the air 
implementation here today.
    First, although major delays in international arrivals have not 
been reported from the implementation at US-VISIT at airports so far 
(we do not have information about the sea port implementation), we are 
extremely concerned about the capacity of the system to absorb 
additional travelers and additional data, as we enter the peak travel 
season, particularly with the inclusion of Visa Waiver travelers by the 
end of September.\9\ This concern arises on the technology, personnel, 
and infrastructure level. The US-VISIT program has so far been 
operational only during the lowest period for international travel to 
the United States during the year. As travel season picks up this 
summer, we expect additional travelers to arrive requiring enrollment 
in US-VISIT.
---------------------------------------------------------------------------
    \9\ Approximately 13 million Visa Waiver Program entries would be 
included in the system, according to DHS data.
---------------------------------------------------------------------------
    We also noted that CBP, as an insurance against delays, deployed 
additional personnel to airports in the initial days of the US-VISIT 
implementation. Yet GAO further noted that the US-VISIT office does not 
project any increased personnel requirements for the US-VISIT 
program.\10\ If additional travelers during peak season or additional 
classes of travelers are required to be enrolled in the US-VISIT 
system, it is hard to imagine that additional staff will not be 
necessary to avoid delays. We would strongly urge CBP to devote 
adequate staff to ensure expeditious processing of all international 
travelers.
---------------------------------------------------------------------------
    \10\ ``Finally, DHS's plans for future US-VISIT resource needs at 
the land ports of entry, such as staff and facilities, are based on 
questionable assumptions, making future resource needs uncertain.'' 
Ibid.
---------------------------------------------------------------------------
    We also have concerns about the proposed exit system for airports, 
which is still in the development phases. The current system of exit 
confirmation is the testing of self-service kiosks located near the 
passenger security checkpoints at airports. While the concept of a 
self-service checkout is appealing, and certainly is the least likely 
to cause disruption or additional backups for departing travelers, the 
lack of information provided to travelers and the seeming 
``voluntariness'' of the system may, in fact, reduce the effectiveness 
of the exit system in actually recording departures. The self-service 
kiosk also provides the traveler with no documentary evidence that he 
or she has complied with the exit verification, and, therefore, should 
any discrepancy arise, the traveler will be at a loss to prove 
compliance.
    Given these discrepancies, any method of exit verification must 
include clear directions to the traveler upon entry as to the need to 
``check out'' upon departure and the means by which to do so. Since 
initially the exit capability will not be available at all airports, we 
predict a great deal of confusion by travelers as to the exit 
requirement. We have already received questions via our American 
Chambers of Commerce overseas regarding whether travelers must exit 
from designated airports, and if they do not, how their exit will be 
registered and whether it will impact their ability to return to the 
United States in the future. A great deal of outreach to travelers (in 
multiple languages) must be made to avoid inadvertent noncompliance 
with any requirements for exit verification. We would strongly urge a 
period of time during which any negative impacts from failure to 
register are waived until it is clear that most travelers understand 
and are able to comply with the exit requirements.
    Of course, the largest challenge to the US-VISIT program remains 
the land borders. The circumstances of travel at land borders are 
monumentally different than at air and seaports and the hurdles are 
immeasurably higher. The unique situation of the land borders was 
discussed extensively in the 2002 DMIA Task Force Report to Congress. 
The report stated:
        There is a marked difference between an inspection conducted at 
        an air or sea POE [port of entry] and one conducted at a land 
        border. Because of their varied status, divergent points of 
        origin, unfamiliarity with requirements and regulations, and 
        the increased risk to the U.S., most applicants for admission 
        at seaports and airports receive a comprehensive inspection 
        that includes mandatory data systems checks. In contrast, the 
        great majority of persons arriving at land border POEs are 
        residents of the border area who cross frequently and are 
        familiar with requirements concerning their entry into the U.S. 
        and receive an inspection that may include data systems checks. 
        The vast majority of all border crossings into the U.S. occur 
        at land border POEs. . . . Border traffic includes U.S. 
        citizens who leave and reenter the U.S. multiple times daily, 
        permanent residents who make multiple entries, and aliens who 
        hold non-immigrant visas or border crossing cards and commute 
        back and forth daily or weekly from Canada or Mexico. 
        Individuals can cross land borders as pedestrians, on bicycles, 
        in cars, rails, buses, trucks, or other vehicles.\11\
---------------------------------------------------------------------------
    \11\ Data Management Improvement Act Task Force First Annual Report 
to Congress, December 2002, p. 11.
---------------------------------------------------------------------------
    In fact 80% of all inspections take place at the land borders; over 
358 million inspections in 2002 were conducted at land borders, 
compared to 78 million at airports and 12 million at seaports.\12\ The 
land borders also see the crossing of $540 billion in surface trade 
between the United States, Canada and Mexico.\13\ As these facts and 
statistics reveal, the land borders represent a significantly larger 
challenge for the Department in order to ensure that the implementation 
of US-VISIT does not impede legitimate commerce and travel.
---------------------------------------------------------------------------
    \12\ Source: PAS G-22.1 INS Statistics, cited in Data Management 
Improvement Act Second Annual Report to Congress, December 2003, p. 15.
    \13\ Bureau of Transportation Statistics, U.S. Department of 
Transportation, North American Merchandise Trade by U.S. State and All 
Land Modes, 2002, www.bts.gov/ntda/tbscd/reports/annual02/state/
us_trade_2002_all.html.
---------------------------------------------------------------------------
    I do wish to emphasize that there is more at stake here than 
dollars and cents. The way we go about securing our nation has a 
profound impact on how other countries view us. It is also about a way 
of life that is intrinsic at our borders. These communities are so 
intertwined with those across the border that not just jobs, but whole 
lives, could be changed along with the fabric and social underpinnings 
of these communities if we are not careful about our approach.\14\
---------------------------------------------------------------------------
    \14\ We have attached to this testimony the results of a recent 
survey we conducted of local chambers of commerce in communities along 
the borders with Canada and Mexico which give detail regarding the 
economic and social impact of border changes on their communities. The 
results include economic impact studies, resolutions of concern by 
local chambers of commerce, and other statements regarding the border.
---------------------------------------------------------------------------
    Therefore we also urge that as the US-VISIT program is developed it 
be coordinated with other programs at the land borders, including 
NEXUS, SENTRI and the FAST clearance for truck operators. But 
especially we urge that DHS actively, and quickly, provide the border 
communities with a detailed description of the programs to be 
implemented and how, so that inaccuracies, rumors and fears may be 
quelled. The time for generalities has passed and communities need a 
detailed explanation, port-by-port as to how US-VISIT will be up and 
running by December 2004. These communities, which know the day-to-day 
realities, should be given the chance to comment both formally and 
informally on the proposed implementation, and provide input and 
feedback to ensure that their, and our, worst fears are not realized.
    In conclusion, we know that our borders and ports of entry cannot 
be our first line of defense, but the last in a series of layers, that 
begins when a foreign traveler decides to visit the U.S. at our 
embassies and consulates abroad. Many necessary changes have already 
been made in our visa process, but not without impact.
    America's trade relationships, our diplomatic relationships, our 
cultural relationships and our academic relationships with the rest of 
the world depend a great deal on the ability of people to travel to the 
United States. The ability of any of these transactions to happen 
depends on the timeliness, predictability and efficiency of our visa 
and immigration system. Unfortunately, these qualities have been sorely 
lacking. Specifically, the changes to the visa system over the last 
year have strained many of our business and international 
relationships, and have created problems and costs for our economy, as 
described above. We need to be pro-active in quickly correcting these 
negative perceptions, and further refining our necessary procedures. 
Once patterns of travel, trade and educational and cultural exchange 
are reestablished with other nations, it will be difficult for the 
United States to get them back. We understand that the Department of 
Homeland Security is currently undertaking a thorough review of the 
visa system, with an eye toward these goals of security, efficiency and 
timeliness and we welcome that review, and hope we will have an 
opportunity to participate with the Department in reengineering this 
process.\15\
---------------------------------------------------------------------------
    \15\ Tom Donohue, the President and CEO of the U.S. Chamber, has 
written to both Secretaries Ridge and Powell regarding visa processing 
and has suggested that a private sector advisory committee be created 
on this issue. The Chamber will soon be submitting detailed suggestions 
to the Department of Homeland Security to improve visa processing.
---------------------------------------------------------------------------
    Let me reiterate that we understand the concern for security, and 
the Chamber fully supports efforts to improve our screening of persons 
who wish to come to this country. However, as stated above, we must 
look for those processes that can achieve that objective without 
sacrificing the efficiency and timeliness of our system. Our largest 
concern is that new policies seem to have been put in place with 
inadequate consideration of the need for coordination and communication 
with the private sector, or the real resource needs to efficiently 
carry out these changes.
    We are also aware that many of these changes are being prompted by 
Congressional mandates, with tight deadlines. We believe that Congress 
must take a realistic look at what it hopes to accomplish in such a 
short time, and the costs, to the taxpayers, to our economy and our 
foreign relations of moving forward without adequately gauging the 
impacts. While deadlines may impart the seriousness of the imperative, 
deadlines that cannot be met provide a false sense of security.
    None of this is to discourage efforts within the government 
agencies to deal with the very difficult questions of how to ensure 
that the next terrorist cannot penetrate our border protections--
whether at the consulates overseas or at the ports of entry. In the 
end, it is the quintessential job of government to protect its 
citizens, and progress has been made. But we urge those with this 
responsibility to listen to the very real concerns of those who must 
live with the decisions they make.
    I wish to thank you for this opportunity to share the views of the 
U.S. Chamber of Commerce and I look forward to your questions.

           U.S. Chamber of Commerce Border Survey March 2004

    The following represents a sampling of the responses we received to 
an informal survey of local chambers of commerce on the Canadian and 
Mexican borders in March 2004 regarding the potential impact of border 
security measures, including the proposed US-VISIT system, on their 
communities and economies.
Texas
    The Laredo Port of Entry is the busiest commercial crossing on the 
U.S.-Mexico border, handling more than 9,000 trucks and over 900 rail 
cars each day. The Port of Laredo processed more than $32 million in 
exports and almost $47 million in imports from Mexico in 2002. In 
addition, the crossings in Laredo process almost 25,000 pedestrians and 
more than 43,000 passenger cars daily. According to the Laredo Chamber, 
``[A]ny delay, no matter how small per entry, multiplies into major 
congestion.''\16\ The Laredo Chamber estimates that at least 50% of 
local business is directly or indirectly tied to cross-border trade and 
traffic.
---------------------------------------------------------------------------
    \16\ Response to survey by Miguel A. Conchas, President and CEO of 
the Laredo Chamber of Commerce, February 2004.
---------------------------------------------------------------------------
    A recent study by Dr. Michael Patrick, Director for the Texas 
Center for Border Economic and Enterprise Development at Texas A&M 
University concluded that a 1% decrease in border crossings would cost 
the Laredo economy $19 million in annual sales, and increase local 
unemployment by 7.2%. Sales taxes alone would decline by $133,000. 
Across all of the major Texas ports, Brownsville, McAllen, Laredo, and 
El Paso a 1% decline in crossings would cost the border region $76 
million in sales and 1,500 jobs, and decrease the Gross State Product 
by $1.2 billion.\17\
---------------------------------------------------------------------------
    \17\ Patrick, Dr. Michael, ``The Price of Security,'' Inlandport: 
The Laredo Chamber's Business and Trade Magazine, January/February 
2004.
---------------------------------------------------------------------------
    The Brownsville, Texas Chamber of Commerce reported an additional 
concern: Mexican citizens own approximately 50% of the resort 
condominiums at South Padre Island. Because the majority of Mexican 
border crossers hold so-called ``laser visas,'' Border Crossing Cards 
that also serve as visitor (``B-1/B-2'') visas that generally restrict 
their period of stay to 72 hours, the Chamber is extremely concerned 
that if border crossings become more difficult, many of these owners 
will divest of their real estate, costing the local economy millions of 
dollars. If the period of stay for ``laser visas'' is not extended, 
long border delays will limit the time that these vacationers can use 
their homes, making these investments less attractive.
    The El Paso international bridges handle almost one-fifth of all 
trade along the U.S.-Mexico border, more than $38 million in 2002. 
Local economists estimate between 15% and 20% of the city's retail 
sales are derived from Mexican nationals.
    According to the Greater San Antonio Chamber of Commerce, Mexican 
nationals purchased approximately $170 million in retail goods in San 
Antonio last year. Two major malls in the area report that as much as 
35% of all sales go to Mexican nationals. Further, according to Visa 
International, San Antonio has the second largest usage of their credit 
cards by Mexican nationals in the United States (second to McAllen), 
with 8.29% of total U.S. purchases.
    The Free Trade Alliance of San Antonio, the Greater San Antonio 
Chamber of Commerce and the communities of Brownsville, McAllen, 
Laredo, Del Rio, and El Paso have agreed to work together to address 
these issues. One common goal is to obtain a change to the limitation 
on the ``laser visa'' to allow Mexican nationals to stay for longer 
periods of time and to be exempt from US-VISIT enrollment, since they 
have already submitted to extensive background checks to obtain the 
cards, which contain the biometric identifiers required under the US-
VISIT system.
Washington
    Whatcom County, Washington has four border crossings, Peace Arch, 
Pacific Highway, Lynden, and Sumas, accounting for more than 2 million 
crossings per quarter. The region had almost a one-third drop in 
crossings since the fall of 2002. While some of this continued the 
downward trend since the Canadian dollar weakened in the 1990s, it is 
worth noting that border activity has not increased in recent years as 
the Canadian dollar has strengthened.
    A survey conducted by Western Washington University in the summer 
of 2003 revealed that Canadian shoppers make approximately 10% of all 
retail sales in Whatcom County, estimated at over $35 million. In 2002 
the total trading relationship between Washington and Canada was nearly 
$11.3 billion. The Blaine, Washington border crossings are the sixth 
largest crossing in value of trade on the Canadian border at $9.9 
billion.
    According to Department of Homeland Security estimates, an 
additional nine seconds of inspection time will result in over 700 
additional minutes of cumulative vehicle wait time at the Blaine 
crossing.\18\ Delays at the border after September 11 and during 
periods of heightened security alert have caused Canadian residents, 
particularly in the Vancouver metropolitan area, to believe that border 
crossing is a hassle. There is discussion in British Columbia of 
running commercials on Vancouver area television encouraging Canadians 
to return north. Canadian press has reported stories about US-VISIT 
expressing great concern that it will cause additional delays when 
implemented. The local chamber of commerce in Bellingham, Washington 
reports hearing very little about how the Department is intending to 
implement US-VISIT and is very eager for local community outreach.
---------------------------------------------------------------------------
    \18\ Department of Homeland Security, US-VISIT Industry Day 
Briefing, July 2003, http://www.dhs.gov/interweb/assetlibrary/
USVISIT_IndustryConfBrief.pdf.
---------------------------------------------------------------------------
Arizona
    The Yuma County, Arizona chamber has concerns about the impact of 
US-VISIT on the more than 20,000 agricultural workers that visit daily 
at the San Luis Port of Entry during the agricultural season. Yuma is a 
county of 170,000 people in the southwest of the state called ``the 
lettuce capital of the country'' and depends on this agricultural 
workforce for its more than $500 million agricultural industry. 
According to Ken Rosevear, Executive Director of the Yuma Chamber of 
Commerce:
        It is extremely important that [these workers] are able to 
        cross within a short window of time to be able to coordinate 
        with the busses that transport them to their work areas. These 
        areas may be as far as 50 miles and require another two hours 
        of travel. Waiting times at the border during the season can 
        reach 2+ hours and that delay can cause shortages for that 
        day's labor force in the fields. . . .[T]hese delays can cost 
        millions of dollars in lost revenue per day.\19\
---------------------------------------------------------------------------
    \19\ Response to survey of border chambers, February 2004.
---------------------------------------------------------------------------
    According to the Yuma chamber, a new port of entry at San Luis East 
is in the early stages of development because of existing congestion at 
the port of entry, including a new highway to run from the port to 
Interstate 8. According to Mr. Rosevear, ``As far as ability to absorb 
any further delay in either commercial, auto, or pedestrian traffic, 
absolutely NONE. This will bring total gridlock to our current port.'' 
\20\
---------------------------------------------------------------------------
    \20\ Ibid.
---------------------------------------------------------------------------
    The Douglas, Arizona Chamber of Commerce reports similar concerns. 
Douglas estimates that more than 60% of its retail volume is from 
Mexican customers, and it underpins the entire local economy. Currently 
crossing times coming into the United States range from 20 minutes to 2 
hours, with lines backing up more than 10 blocks into the town. This 
traffic backup creates air pollution problems. The regular crossers 
include employees of the more than 26 maquiladora plants across the 
border, and farm workers. These workers regularly cross the border each 
way daily, and sometimes several times.
    The Nogales Chamber of Commerce reports that 80% to 90% of business 
in the town is tied to the border. The largest employers include the 
more than 300 maquiladora plants, produce companies, government 
agencies (most tied to the border) and merchants, who estimate that 80% 
of their revenue is from Mexican customers. Crossing times at the 
Nogales Port of Entry range from 20 to 40 minutes on average with 
longer waits during morning and afternoon commute times. According to 
Department estimates, a nine second increase in inspection times at the 
Nogales Port of Entry would result in an additional 500 minutes of 
vehicle wait time.\21\ Of significance is the fact that the Nogales 
Chamber was not aware of US-VISIT or its pending implementation until 
informed by the U.S. Chamber. Apparently, there had been no outreach by 
the border agencies to the local Nogales business community.
---------------------------------------------------------------------------
    \21\ Department of Homeland Security, US-VISIT Industry Day 
Briefing, July 2003, http://www.dhs.gov/interweb/assetlibrary/
USVISIT_IndustryConfBrief.pdf.
---------------------------------------------------------------------------
New York
    The Watertown Chamber of Commerce recently conducted a study of the 
Thousand Islands bridge crossing. The Thousand Islands crossing, which 
connects Interstate 81 to Highway 404 in Ontario is one of the fastest 
growing travel routes between Ontario, Quebec and the U.S. southern and 
mid-Atlantic states and cities, handling more than 2 million passenger 
cars per year, and forecasting 80% increase in traffic in the next 30 
years. What makes this crossing unusual is that almost two-thirds of 
crossings are for recreation, and 63% of the visits are for more than 
two nights. Commuter crossings dominate the other major ports of entry 
on the U.S.-Canada border. As a major gateway between the recreational 
areas of upstate New York and the ``cottage'' areas of Ontario and 
Quebec, Thousand Islands is potentially more susceptible to declines in 
crossings due to delays, as vacationers may choose to spend their 
holidays on their own side of the border. The crossing also 
accommodates more than 1,500 commercial vehicles daily, comprising $29 
million in trade per day, with more than 165,000 jobs in the U.S. and 
Canada dependent on this trade.
    According to the Plattsburgh-North Country Chamber of Commerce, the 
total economic impact of Canada on the Clinton County, New York area, 
surrounding the Champlain/LaColle border crossing, is more than $1.3 
billion, including more than 14% of all county jobs, almost $300 
million in annual visitor spending on tourism and retail, and $8.7 
million in county sales tax generated. The Champlain/LaColle border 
crossing is the only crossing in the eastern half of the continent that 
does not cross water, and is currently undergoing a major expansion. 
Yet, still, at the height of the summer vacation season, backups at 
this crossing can be over two hours.

California
    The San Ysidro Port of Entry in California is the busiest border 
crossing in the world, processing over 40 million passengers and 15 
million trucks and busses annually over the past three years. Its 
sister port at Otay Mesa, primarily a commercial port, handles more 
than $20 billion in two-way surface trade annually, averaging more than 
5 million vehicles and 11 million people crossing annually in the last 
five years.
    According to the San Ysidro Chamber of Commerce, more than 60,000 
people cross the border daily, and two-thirds of this volume are 
regular crossers, presumably workers. Inbound waits for crossing are 
often more than two hours, and the chamber estimates that if each car 
is stopped only 10 seconds longer more than nine hours of delay could 
result. In the days following September 11, businesses along Main 
Street in San Ysidro reported more than 90% lost business. Further, 
there is no infrastructure in place for exit inspections, and no room 
for expansion; the town of Tijuana starts literally adjacent to the 
port of entry. Even so, outbound traffic is often backed up more than 
one hour, even though Mexican customs usually waives most traffic 
through.
    At Otay Mesa, the local chamber of commerce estimates that 95% of 
business in the town is generated by cross-border trade, both directly 
and indirectly, much of it the maquila industries that operate 
facilities on both sides of the border, including Sanyo, Honeywell, 
Hitachi, Parker Hannifin, and others. One of the main appeals of the 
area is the availability of a skilled, legal workforce that enters from 
Tijuana daily.
    The El Centro Chamber of Commerce, located just north of the 
Calexico border crossing, is concerned with the impact on its retail 
economy. El Centro has a population of about 150,000, but the adjoining 
town of Mexicali has more than 500,000 ``laser visa'' holders. The 
local Costco and Wal-Mart retail outlets depend on this cross-border 
shopping, and ground has recently been broken on a large new regional 
mall with numerous national retailers to serve this Mexican market. 
Further, businesses in El Centro and farms throughout the Imperial 
Valley depend on Mexican labor. The El Centro chamber expressed 
concerns similar to the Yuma chamber of the impact of US-VISIT on the 
entry of agricultural workers to this vibrant growing center in 
California.
    The Greater San Diego Chamber of Commerce reports that total sales 
to Mexican citizens represented $3 billion in retail sales for San 
Diego in 2000 and 2001. After 9/11, increased border security resulted 
in decreases in sales of up to 80% for several months.
    The Greater San Diego Chamber of Commerce, along with the City of 
Chula Vista, the City of San Diego, the San Diego Association of 
Governments (SANDAG), San Diego Dialogue, Sand Diego Regional Economic 
Development Corporation, the San Diego World Trade Center, San Ysidro 
Business Association, San Ysidro Chamber of Commerce, and the South San 
Diego Economic Development Council, has formed the San Diego Alliance 
for Border Efficiency. One of its goals is to mitigate the impact of 
US-VISIT on southbound border congestion by ensuring the development of 
necessary infrastructure prior to implementation.

Michigan
    The Detroit/Windsor border crossings account for more than 27 
million inspections annually and almost $100 billion in trade. These 
crossings account for almost 40% of all U.S.-Canada trade, with the 
Ambassador Bridge being the single busiest border crossing along the 
northern border, handling 25% of U.S.-Canada trade itself. The 
automotive industry alone accounts for more than $300 million of this 
daily trade. More than 160,000 jobs in Michigan and 1.8 million jobs 
nationwide are tied to the export of manufactured goods to Canada. 
Thirty-eight states and Puerto Rico have Canada as their primary 
trading partner, and half of U.S. exports to Canada are produced in 14 
states. Of the passenger crossings, the majority of noncommercial 
crossings are locals. More than 10,000 people cross the border in 
Michigan to work, including more than 1,600 nurses in the city of 
Detroit. One hospital estimates that 15% of its nursing staff, and 20% 
of its critical care nursing staff, cross the border from Canada.\22\
---------------------------------------------------------------------------
    \22\ Testimony of Dan Cherrin, former Director of Federal Public 
Policy of the Detroit Regional Chamber before the Standing Committee on 
Industry, Science and Technology of the Parliament of Canada, November 
1, 2001.
---------------------------------------------------------------------------
    The efficiency of these border crossings is extremely fragile. 
Following the September 11 attacks, additional security at the Detroit 
border crossings resulted in 20 mile delays on the Canadian side, 
taking five hours to enter the U.S. However, delays as little as 20 
minutes for just-in-time parts deliveries can result in assembly line 
shutdowns, increased costs to reroute trucks or ship cargo by rail, 
barge, or air, and create emergency inventory stockpiles (the exact 
costs that just-in-time was supposed to replace).
    In a June 1998 Senate Judiciary Report on the original entry-exit 
system proposed by Section 110 of the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996, Dan Stamper of the Detroit 
International Bridge Company is cited as estimating that additional 
entry and exit procedures that would add only 30 seconds per vehicle 
(for only half of the daily crossings) would still add 3,750 minutes of 
extra processing time per day. Since there are only 1,440 minutes in a 
day, this effect would essentially shut down the border. In a February 
26, 2004, letter to the Detroit Regional Chamber, Neal Belitsky, 
Executive Vice President of the Detroit & Canada Tunnel Corporation 
(which operates the Detroit-Windsor Tunnel), stated:
        Our facility is typical of those at the other major crossings 
        between Michigan or New York and Ontario. The Bridge & Tunnel 
        Operator's Association (BTOA) represents these crossings. 
        Plazas were not designed for today's traffic volumes or the 
        post 9-11 environment. . . .We are concerned that the system 
        may not be fully field tested prior to installation. This could 
        lead to significant disruptions in cross border traffic and 
        trade. Has an assessment been completed that will indicate both 
        anticipated volumes and risk?''\23\
---------------------------------------------------------------------------
    \23\ Letter to Claudia Berry, Public Affairs Group, Detroit 
Regional Chamber of Commerce, from Neal Belitsky, Executive Vice 
President, Detroit and Canada Tunnel Corporation, February 26, 2004..

    Mr. Camp. [Presiding.] Thank you, Mr. Johnson.
    Mr. Bonner, you have 5 minutes.

 STATEMENT OF T.J. BONNER, PRESIDENT, NATIONAL BORDER CONTROL 
                            COUNCIL

    Mr. Bonner. Thank you. It is a pleasure to present the 
views and concerns of 10,000 front-line Border Patrol employees 
regarding the level of coordination and cooperation between the 
various agencies responsible for different aspects of homeland 
security, as well as to make specific recommendations for 
improving these important interactions.
    Prior to the creation of the Department of Homeland 
Security, coordination within the agencies with primary 
jurisdiction for enforcing immigration, customs and agriculture 
laws was generally very good. Unfortunately, this same level of 
cooperation did not extend beyond each branch. The Homeland 
Security Act of 2002 attempted to improve coordination by 
placing the agencies responsible for enforcing these laws under 
one umbrella and creating two separate components: the Bureau 
of Border Security for enforcement, and the Bureau of 
Citizenship and Immigration Services for service.
    A subsequent political compromise, however, replaced the 
Bureau of Border Security with two separate enforcement 
entities, the Bureau of Customs and Border Protection and the 
Bureau of Immigration and Customs Enforcement. In retrospect, 
this was a mistake. This artificial bifurcation of the 
enforcement functions of the Department has created needless 
barriers to the cooperation and coordination that is so 
essential in law enforcement, replicating and exacerbating some 
of the very problems that led to the call for a consolidated 
agency.
    The merger also created another set of challenges relating 
to the effective enforcement of the various laws under the 
jurisdiction of the new Department. Instead of the relatively 
narrow focus of the previous entities, the two new bureaus are 
both responsible for enforcing customs, immigration and 
agriculture laws. Each of these areas of law are extremely 
complex and require a great deal of training and experience to 
master. It is unrealistic to expect employees to be fully 
competent in these three complex areas of law. In the war 
against terrorism, mediocrity is simply not an acceptable 
standard.
    To remedy these deficiencies, the following solutions are 
recommended. One, consolidate the Bureaus of Customs and Border 
Protection and Immigration and Customs Enforcement into a 
single Bureau of Border Security, as envisioned by the Homeland 
Security Act, ensuring that the Border Patrol remains a 
separate entity within that Bureau. Two, ensure that the three 
main areas of law within the jurisdiction of the consolidated 
bureau are administered and enforced by specialists who are 
comprehensively trained in a single discipline. Finally, ensure 
that all of the components within the consolidated bureau, 
including the Border Patrol, have their own investigative 
branches that report directly up the chain of command to the 
head of their respective division.
    While the need for these reforms is obvious to everyone who 
regularly deals with these issues, managers and other employees 
without collective bargaining rights and protections are 
constrained from publicly acknowledging it. The recent decision 
to remove such protections from all the criminal investigators 
in the Department will deprive Congress and the public of their 
invaluable perspective. Likewise, the new human resources 
management system currently being developed will have the same 
chilling effect on the ability of the Department's remaining 
employees to speak out on issues of public concern. 
Deliberately stifling the voice of those who can warn us of 
problems and recommend solutions is not only counterproductive, 
it is an open invitation to disaster.
    Thank you.
    [The statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner,

    On behalf of the 10,000 Border Patrol employees that it represents, 
the National Border Patrol Council thanks you for the opportunity to 
present our views and concerns regarding the level of coordination and 
cooperation between the various agencies responsible for different 
aspects of homeland security, as well as our recommendations for 
improving these important interactions.
    Prior to the creation of the Department of Homeland Security, all 
of the agencies with primary jurisdiction for enforcing immigration, 
customs, and agriculture laws employed various classifications of 
enforcement personnel, including criminal investigators, responsible 
for those matters within their areas of jurisdiction. Coordination 
within these agencies was generally very good. For example, the 
criminal investigators in the Border Patrol's Anti-Smuggling Unit 
worked very closely with uniformed Border Patrol Agents to uncover and 
break up alien smuggling rings. This close internal coordination was a 
result of all of the various operations being overseen by the same 
management structure and sharing the same organizational culture and 
values. Unfortunately, this same level of cooperation did not extend 
beyond each branch.
    The lack of cooperation and coordination between the agencies 
responsible for enforcing the laws at our Nation's borders and beyond 
was understandably a matter of concern even before the September 11, 
2001 terrorist attacks. Additionally, there was a great deal of support 
for the concept of separating the enforcement and service functions of 
the Immigration and Naturalization Service (I&NS). In fact, the 
National Border Patrol Council endorsed that idea.
    The Homeland Security Act of 2002 embodied those principles, 
authorizing the creation of separate components for enforcement and 
service, the Bureau of Border Security and the Bureau of Citizenship 
and Immigration Services. For reasons that are not entirely clear, a 
subsequent political compromise replaced the Bureau of Border Security 
with two separate enforcement entities, the Bureau of Customs and 
Border Protection and the Bureau of Immigration and Customs 
Enforcement.
    In an attempt to appease those who supported the existing 
bureaucracies, inspections and patrol functions were placed into one 
bureau, and investigation, detention, and removal functions in another. 
Although proponents claimed that this new structure would create a 
clear demarcation between border enforcement and interior enforcement, 
this naive perspective is at odds with reality. By definition, every 
case involving the smuggling of people or goods into the United States 
originates at the border. This artificial bifurcation of the 
enforcement functions of the Department has created needless barriers 
to the cooperation and coordination that is so essential in law 
enforcement, replicating and exacerbating some of the very problems 
that led to the call for a consolidated agency.
    The merger also created another set of challenges relating to the 
effective enforcement of the various laws under the jurisdiction of the 
new Department. Instead of the relatively narrow focus of the previous 
entities, the two new bureaus are both responsible for enforcing 
customs, immigration, and agriculture laws. Each of these areas of law 
are extremely complex, and require a great deal of training and 
experience to master.
    Although the creation of the Department of Homeland Security has 
been compared to a corporate merger, a more apt analogy would be that 
of a hostile takeover. While it certainly would have been unwise to 
incorporate the mistakes of the beleaguered I&NS into the new 
Department, it was equally inadvisable to ignore the vast amount of 
knowledge and wisdom possessed by countless individuals who had 
dedicated their careers to enforcing immigration laws. The dominance of 
a single program in managing and setting the priorities of the bureaus 
that are now responsible for enforcing these three broad areas of law 
has resulted in a decreased emphasis on the enforcement of immigration 
and agriculture laws. This is not so much a conscious decision at the 
highest levels of the organization, but rather a normal subconscious 
predilection on the part of field managers who are primarily familiar 
with customs laws. Training and directives will not cure this problem; 
a revised structure is necessary. The new structure must recognize that 
it is unrealistic to expect employees to be fully competent in three 
complex areas of law. In the war against terrorism, mediocrity is 
simply not an acceptable standard.
    The implementation of the following recommendations would correct 
these deficiencies:
    (1)Consolidate the bureaus of Customs and Border Protection and 
Immigration and Customs Enforcement into a single bureau of Border 
Security, ensuring that the Border Patrol remains a separate entity 
within that bureau.
    (2)Ensure that the three main areas of law within the jurisdiction 
of the consolidated bureau are administered and enforced by specialists 
who are comprehensively trained in a single discipline.
    (3)Ensure that all of the components within the consolidated 
bureau, including the Border Patrol, have their own investigative 
branches that report directly up the chain of command to the head of 
their respective division.
    While the need for these reforms is obvious to everyone who 
regularly deals with these issues, managers and other employees without 
collective bargaining rights and protections are constrained from 
publicly acknowledging it. The recent decision to remove such 
protections from all of the criminal investigators in the Department 
will deprive Congress and the public of their invaluable perspective. 
Likewise, the new human resources management system currently being 
developed will have the same chilling effect on the ability of the 
Department's remaining employees to speak out on issues of public 
concern. Deliberately stifling the voice of those who can warn us of 
problems and recommend solutions is not only counter-productive, it is 
an open invitation to disaster.

    Mr. Camp. Thank you, Mr. Bonner.
    Mr. Ugazio, you have 5 minutes.

  STATEMENT OF SERGIO UGAZIO, SECRETARY, NATIONAL INS COUNCIL 
    LOCAL 1944, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Ugazio. Good morning, members, Mr. Chairman, Ranking 
Member Sanchez, distinguished members of this committee. My 
name is Sergio Ugazio. I am Secretary of Local 1944, National 
Immigration and Naturalization Service Council. I am also an 
immigration enforcement agent with the Bureau of Immigration's 
Custom Enforcement within the newly formed Department of 
Homeland Security. I have been an immigration agent for almost 
10 years, and prior to that I was a corrections officer at a 
maximum security penitentiary within the Federal Bureau of 
Prisons. I am a former United States Marine and veteran of 
Desert Shield and Desert Storm.
    This morning, I will touch on three points of interest 
within the Department of Homeland Security. They are as 
follows: the relationship between the Bureau of Customs and 
Border Protections and the Bureau of Immigration and Customs 
Enforcement, specifically the way that special agents, Border 
Patrol agents, and detention personnel interact; a widespread 
morale problems in both bureaus; and finally, everyone's 
favorite topic, pay banding and pay-for-performance systems.
    First, with regard to staffing, while it is true DHS has 
increased the number of Border Patrol agents, like my colleague 
here, and inspectors to put on the borders since the events of 
September 11, 2001, in my line of work, detention and 
deportation, there have not been enough new hires to ensure 
proper execution of deportation procedures, nor to ensure 
adequate personnel for immigration court and final disposition. 
There is also a lack of detention space.
    What this means is CBP officers, special agents and other 
law enforcement agencies are making arrests, but no one is 
taking care of these criminals. I am talking about criminals. 
Who is going to deport these people? And most importantly, how 
and where are these illegal aliens going to be housed? You can 
catch all of the illegal immigrants you want, but please 
consider what is to be done with them once they are caught and 
in custody.
    Illegal aliens apprehended in the U.S. have to be processed 
for immigration court and final disposition procedures, and 
reviewed for possible criminal activity, or most importantly, 
terror connections. If the number of arresting agents 
increases, then the number of agents preparing cases for final 
disposition must be increased as well, which is me. If you have 
a lot of these guys here, I am the guy that has to deal with 
what they do. I am the one that clean up everything that they 
do and makes sure that the rules and regulations of this 
Congress are followed.
    In fact, it is on a daily basis in this country, aliens are 
caught crossing the border illegally and released and paroled 
in because of the lack of detention bed space. Where are you 
going to put these people once they are captured? Okay? They 
have to go somewhere. Once an alien is in custody, he must be 
offered due process. In South Texas, we have hundreds of agents 
and inspectors arresting people, but only 22 deportation 
officers oversee thousands of cases while ensuring an alien's 
rights are not violated, and the agency is protected from 
Habeas actions and lawsuits. This is an enormous undertaking 
and responsibility. The bottom line is clear: We need more 
detention and removal staff, which is what I do, not what he 
does. He catches them. I deal with the end result.
    As to the second point, there is a morale problem within 
the DHS. A minute ago, a gentleman sitting over there says, how 
is the pay. The Chief said, hey, it is great; we all got GS-
11s. But that is a temporary fix. We are going to go to a 
situation called pay banding. We had the largest budget in the 
history of the INS, Border Patrol, U.S. Customs, U.S. 
Agriculture, and yet we are under a hiring freeze. How are you 
going to catch these terror connections if you are under a 
hiring freeze? If the U.S. faces the threats it does, why are 
we not hiring more personnel? Why isn't there any money for 
overtime? There are people who want to do the job, but there is 
no money for overtime.
    These are the kinds of questions being asked and this is 
why a morale problem exits. Also, the proposed new personnel 
system for the Department shifts the balance of power from 
unions to management so dramatically that it is causing great 
fear among employees. Pay banding, for instance, is part of the 
new system. This system has not worked for federal air 
marshals. What makes you all think it is going to work for us? 
This is demoralizing, and under this plan supervisors can 
unfairly reward their friends, and less-favored agents better 
not complain.
    In closing, I know the agency and its executive staffs have 
a daunting task in making this successful, and I know it is a 
difficult deal. I know that many people at all levels are doing 
their best. All I ask is that you keep the concerns expressed 
by the agents and officers and administrative support staff and 
all others about the proposed personnel system. All of these 
people that responded to the crumbling towers in New York on 9-
11, they were all union members, every single one of them. They 
never complained about the working conditions that day, because 
I do not think there were any working conditions.
    That is it. My time ran out.
    [The statement of Mr. Ugazio follows:]

                  Prepared Statement of Sergio Ugazio

    Good morning Mr. Chairman, Ranking Member Sanchez and distinguished 
Members of this Committee. My name is Sergio A. Ugazio and I am the 
Secretary for Local 1944 of the National Immigration and Naturalization 
Service Council. I am also an Immigration Enforcement Agent with the 
Bureau of Immigration and Customs Enforcement (BICE) within the newly 
formed Department of Homeland Security (DHS). I have been an 
Immigration Agent for almost 10 years and prior to that I was a 
Corrections Officer at a maximum security prison within the Federal 
Bureau of Prisons. I am also a former U.S. Marine and veteran of Desert 
Shield/Desert Storm.
    This morning I am going to discuss three points of interest 
concerning the Department of Homeland Security. They are as follows:
    (1.) The relationship between the Bureau of Customs and Border 
Protection (BCBP) and the Bureau of Immigration and Customs Enforcement 
(BICE) and specifically the way that Special Agents, Border Patrol 
Agents, and the Detention personnel interact;
    (2.) The widespread morale problem in both Bureaus;
    (3.) And finally everybody's favorite topic, Pay Banding and Pay 
for Performance systems.
    First, with regard to the Border Patrol. While it is true that DHS 
has increased the number of agents deployed along the borders since the 
events of September 11, 2001, in my line of work--deportation--there 
have not been enough new hires to to ensure proper execution of 
deportation procedures, nor to endusre adequate personnel for 
immigration court and final disposition, and there is a lack of 
detention space. . What this means is CBP, Special Agents and other law 
enforcement agencies are making arrests but no one is taking care of 
the criminals. Who is going to deport these people? And most 
importantly, how and where are these illegal aliens going to be housed? 
You can catch all of these folks you want, but please, consider what is 
to be done with them once they in custody.
    Illegal aliens apprehended in the U.S. have to be processed for 
immigration court and final deportation procedures and interviewed for 
possible criminal activity and terror connections. If the number of 
arresting agents increases, then the number of agents preparing cases 
for final disposition must be increased as well. The fact is that on a 
daily basis in this country, aliens are caught crossing the border 
illegally and released (paroled in) because of the lack of detention 
bed space. Once an alien is in custody he or she must be afforded due 
process. In South Texas, we have hundreds of Agents and Inspectors 
arresting people but only 22 Deportation Officers who must oversee 
thousands of cases while ensuring aliens rights are not violated and 
the agency is protected from Habeas actions and lawsuits. This is an 
enormous undertaking and responsibility. The bottom line is clear: We 
need more detention and removal staff.
    As to the second point, there is a morale problem within DHS. We 
have the largest budget in the history of legacy INS, Border Patrol, US 
Customs, US Agriculture and yet we under a hiring freeze. With the U.S. 
facing the threats it does, why are we not hiring more personnel? Why 
isn't there any money for overtime? These are questions the kinds of 
questions being asked and why a morale problem exists. Also, the 
proposed new personnel system for the Department shifts the balance of 
power from unions to management so dramatically that it is causing 
great fear among employees.
    Pay banding, for instance, is a part of the new system. If this 
system of has not worked for the Federal Air Marshals, what makes the 
Department believe that it will work for us? I cannot find one agent 
that wants this pay system. NOT ONE! I have read about the proposed 
system, and to be quite honest, it's demoralizing! Under the plan, 
supervisors can unfairly reward their friends, and less favored agents 
better not complain. THIS IS NOT FAIR! I am against it, and it is my 
opinion that DHS will lose a lot of highly skilled professionals 
because of the pay banding system. Just read the comments from 
employees; the overwhelming number oppose this system. Let the numbers 
speak for themselves
    In closing, I know the agency and its executive staff have a 
daunting task in making DHS successful. I know that many people at all 
levels are doing their best. All I ask is that you hear the concerns 
expressed by Agents, Officers, administrative and support staff, and 
others about the proposed new personnel system. All of those first 
responders, firemen, NYPD, FEMA, and all the other law enforcement 
officers that put aside their personal well-being and ran into those 
burning and crumbling towers on that infamous day. . . THEY WERE ALL 
UNION MEMBERS!
    When President Bush went to ground zero and grabbed the loud 
speaker, he was addressing union workers. Please don't attack the very 
people that defend this nation with union busting and personnel 
procedures that eliminate so many important employee rights. Instead, 
support us in our effort to be the dedicated, committed and vigilant 
employees so many of us want to be. Help us attack terrorism, identify 
sleeper cells in the U.S. and work to keep America great. Thank you

    Mr. Camp. Thank you very much. Thank you all for your 
testimony.
    Ms. Sanchez may inquire.
    Ms. Sanchez. Thank you, Mr. Chairman. I thank all the 
witnesses before us today.
    I want to direct just a couple of questions to Mr. Ugazio 
and to T. J. Bonner. In the earlier panel, I am sure you heard 
all the rosy testimony from our DHS people. I want to find out. 
I asked them a couple of questions. I want to find out about 
the controlled delivery situation, or even broader than that, 
how are the different pieces working together? Do your people 
feel that there is the cooperation in between ICE and the 
Border Patrol, for example?
    Secondly, the other question is about the issue of having 
an immigration specialist around when the Border Patrol does 
get people, and whether they can be processed, or what you do 
with them. So I would ask both of you to speak to that. They 
told me there was no problem. They were working together; that 
everything was great. What do your people feel? You are 
representing the on-the-ground troops there, if you will.
    Mr. Ugazio. Basically, ma'am, the way the situation works 
is an alien is captured. They are processed by the Border 
Patrol. There is a 24-hour situation. They are interviewed by 
the Border Patrol personnel for criminal activity, to be 
categorized into a situation where they are just border 
crossers or if they are criminals or if they have terrorist 
connections. Once that is established, then they give a call to 
where I am stationed at the facilities. They talk to the 
supervisors. It is more like on a case-by-case basis. There 
really is not a situation where there is a policy, this is the 
way it will be done. It is just the Border Patrol supervisor at 
that time calls us and says, do you have bed space; we have 
this situation here; can you come pick this up. And a guy like 
me will go get them. I will apprehend this individual and he 
will come into my custody and he will be held with us.
    Ms. Sanchez. What if you do not have bed space?
    Mr. Ugazio. If I do not have bed space, ma'am, that 
individual is going to be paroled. Once it has been established 
that he is just, let's say, a border-crosser, the individual is 
paroled into the U.S. which means he is still actually in 
custody, but he has to report back to the immigration court for 
final disposition. They do or do not. I do not know. Sometimes 
they do.
    Ms. Sanchez. Mr. Bonner?
    Mr. Bonner. It is interesting that they chose to put Mr. 
Aguilar up here because the Tucson Sector is the only one that 
has embarked on a so-called integrated effort between ICE and 
CBP. And even at that, it is not working nearly as well as it 
could be.
    On the issue of controlled loads, we simply do not have 
that many occurring now because the level of cooperation is 
much less than it used to be when we had our own internal anti-
smuggling unit. Typically on drug loads, we interface with the 
Drug Enforcement Agency, which is still part of the Department 
of Justice. So that level of cooperation never was really 
great, and that aspect has not changed.
    What has changed is the emphasis has shifted from 
immigration violations to customs violations, because most of 
the people who are running the ICE agency are former Customs 
people. I cannot really blame them for wanting to not repeat 
the mistakes made in the INS and not to bring over poor 
managers from that area, but there were a lot of good people 
who had a lot of knowledge about immigration, and they have 
been pushed out of the picture. So all of the emphasis, or the 
majority of it is now on customs violations. So we do not get 
those calls anymore, because most customs violations are coming 
through the ports of entry, not around the ports of entry.
    Ms. Sanchez. The last question I have is on the 
performance-based pay system. It seems to me if we are asking 
people to cooperate, like in the controlled situation for 
example, doesn't the performance-based system maybe not make 
you want to cooperate as much? Maybe you want to do a drug 
bust, if you are in charge of doing a drug bust at the actual 
border, wouldn't you rather do that if it was going to be 
performance-based, than let it go through and get somebody else 
further up in the system to go after that drug bust, for 
example?
    Mr. Bonner. Absolutely. If you are being paid based on your 
performance, which is rated by your first-line supervisor, 
there is absolutely no incentive for you to cooperate outside 
that chain of command, because you will not be recognized and 
rewarded for it. Another problem that would come up is if you 
get intelligence about something happening, you are going to 
hang on to that because you will be rewarded if you are the 
agent who makes the big bust. So why on earth would you give 
the information to the next agent to let them take money out of 
your pocket?
    Ms. Sanchez. Thank you, gentlemen.
    Mr. Camp. Thank you. Your time has expired.
    Ms. Granger may inquire?
    Ms. Granger. Thank you.
    Mr. Ugaziao, you said there is a hiring freeze. When was 
that hiring freeze instituted?
    Mr. Ugazio. Ma'am, it is currently ongoing. It has been 
going on for quite some time. I can provide you that 
information. I do not have it with me. I have e-mails from 
headquarters stating so. I have that information.
    Ms. Granger. Good. Thank you. You talked about pay banding. 
I am sorry. I do not know what pay banding is.
    Mr. Ugazio. This is exactly the situation that we are 
talking about. If there are not people like us, you are never 
going to know about that. Union personnel, we are not against 
the system. We want to work with you. We want to do the job.
    Ms. Granger. What is pay banding?
    Mr. Ugazio. Pay banding is a pay-for-performance system 
that rewards people that supposedly do a good job and do the 
right thing on a daily basis.
    Ms. Granger. Fine.
    Mr. Ugazio. Here I am addressing Congress, but last month I 
got a fully successful, which is a middle rating, for my 
interpersonal skills. And I am a union representative. People 
come to me with their problems and I deal with them. I am the 
liaison between the managers and the problem. It is a buffering 
system and I am the guy that does it, and I get a fully 
successful, which is a minimum rating. I should be getting 
outstanding.
    Ms. Granger. Okay. I was not familiar with that term.
    Mr. Johnson, you talked about US-VISIT. My question is, is 
your question, can it be done? Your concern is, can it be done 
at all or can it be done in that time frame?
    Mr. Johnson. US-VISIT, I think DHS has recognized they have 
to phase-in the system over time, rather than plop it into 
place in December 2004. Frankly, I share the skepticism of 
border communities, at least the ones we hear from, like 
Laredo, which is, are they going to be able to get out there in 
December, only 6 months out, and do it in time.
    Ms. Granger. Your concern is the time, the deadline.
    Mr. Johnson. It is. If they can do it, our hat is off to 
them, but we are talking about ripping up streets and 
installing equipment, without hopefully delaying traffic while 
it is all being done. We are talking about installing radio 
frequency responders, where the idea is that people will be 
exiting the country, and that when they exit, that will be 
picked up by the radio frequency responder with no errors, and 
then the next time that person comes back into the country, it 
will be faithfully recorded that they in fact exited on time. 
What if that is not recorded and what happens when they come 
back? There is a big question. Did you exit on time? Did you 
exit illegally?
    Ms. Granger. You question the deadline, and also whether it 
will even work. Right?
    Mr. Johnson. Well, they all go together. It is just that we 
are skeptical as to whether they can meet it. We are not 
questioning the need for US-VISIT and the fact a system has to 
be put in place, but there are lots of pieces to this puzzle. 
What DHS at a minimum needs to do is get down there to the 
border communities, each one individually, and say, this is 
what we plan to install, and how to do it, and here is our 
timeline at your port of entry. Right now, there are a lot of 
generalities at the top, and reassurances that we will get it 
done, do not worry. But we have to reflect the concerns of our 
local Chambers and that is what I am trying to do.
    Ms. Granger. Thank you.
    Mr. Camp. Mr. Dicks may inquire.
    Mr. Dicks. Let me ask you, Mr. Bonner, does the Border 
Patrol have the same problems, morale-wise, as does Mr. 
Ugazio's people?
    Mr. Bonner. Absolutely. I have been a Border Patrol agent 
for 26 years and I can tell you that I have never seen morale 
lower.
    Mr. Dicks. Again, is it pay banding? Is it the anti-union 
approach of the Administration?
    Mr. Bonner. I think that is a significant part of the 
problem. I think another part, in addition to the pay-for-
performance, is the whole notion that collective bargaining is 
going to go away; that employees will lose a meaningful voice. 
But another aspect that is very troubling to the agents and is 
very demoralizing, is this strategy of deterrence, the notion 
that you can sit there for 10 hours and your mere presence will 
deter people from coming into the country. The agents see 
people streaming by on either side, and they are thinking to 
themselves, I signed up for this, to sit here? This is even 
worse because they see these recruiting videos where agents you 
are on horseback, and there are helicopters, et cetera.
    Mr. Dicks. So none of that is occurring? Is that what you 
are saying?
    Mr. Bonner. I am saying, depending on the part of the 
country and depending on your work assignment, you might be 
told you are going to sit here all week, 10 hours a day, and 
you will do nothing but be a mannequin. That is very 
demoralizing.
    Mr. Dicks. That is more on the northern border, right?
    Mr. Bonner. No, that is on both borders.
    Mr. Dicks. Both borders?
    Mr. Bonner. Absolutely.
    Mr. Dicks. And nobody else is going out to stop these 
people from coming in?
    Mr. Bonner. That is the reason that we have a minimum of 
eight million people in the country illegally.
    Mr. Dicks. What is the explanation for that? What is the 
strategy?
    Mr. Bonner. The explanation is that if you leave your 
position, then other people can come in through the void that 
you have created. The philosophy behind the strategy is that if 
you have a lot of high-visibility positions, that this will 
somehow deter people from coming into the country. Well, you 
have people in Mexico where for example, the average wage is $4 
a day, and in the United States it is at least 10 times that 
much, and they have the choice between living in abject poverty 
or making a better life for themselves and coming across. Of 
course, they are going to do that. I would do that if I were in 
their situation.
    Mr. Dicks. So you personally disagree with the strategy. 
You do not think the deterrent policy is working and that we 
ought to be out trying to stop these people from coming in.
    Mr. Bonner. Absolutely. We should be out there enforcing 
laws the way we did for the first 70 years of the Border 
Patrol.
    Mr. Dicks. This has all changed since the Department of 
Homeland Security was created?
    Mr. Bonner. No, this dates back to about 1994 when they 
launched Operation Hold the Line. Actually, Hold the Line I 
believe was initiated in 1992. It was a gradual transition, but 
it swept across the whole Border Patrol by the mid-1990s. It 
has had a very demoralizing effect. I think that strategically 
it has been a mistake. It has resulted in higher numbers of 
people eluding apprehension.
    Mr. Dicks. Mr. Johnson, go back to US-VISIT. I understand 
the part of it dealing with the airlines. Tell us what this 
actually means? What is required at the ports of entry?
    Mr. Johnson. Well, right now if you hold a visa, and you 
come into a port of entry, either airports or come December at 
land ports, you have to come into primary, and then you will be 
referred to what they call secondaries, as these gentlemen know 
better than I, and your index fingerprints will be taken and 
you will be photographed, and that information will be put into 
a database.
    Of course, you are also checked at that same time, as 
everyone else is, against INS's databases like IDENT and NAILS. 
Now, the visa waiver program, individual travelers are going to 
be added come September, and that is an estimated 13 million 
additional travelers to the program. So obviously, that is a 
huge chunk of a number of people who are going to be now under 
US-VISIT. Can the government handle that additional volume and 
still get the lines processed quickly? We think it is a big 
question. Obviously, if they poured the resources needed there, 
then they can, but I think the government is going to have to 
acknowledge that additional resources are going to be needed in 
this case.
    Mr. Dicks. Does the hiring freeze affect this as well, Mr. 
Bonner? Mr. Ugazio?
    Mr. Bonner. It is going to affect every program out there 
because we are simply not allowed to bring new people on board. 
While the Border Patrol claims that it is not operating under a 
hiring freeze, it has not hired anybody since March. They claim 
that they have reached their hiring goals for the year. Well, 
given the fact that we are so hopelessly outnumbered?
    Mr. Dicks. How many Border Patrol people are you short?
    Mr. Bonner. We have 11,000 uniformed Border Patrol agents 
to cover 6,000 miles of land border, 24 hours a day, 7 days a 
week, 365 1/4 days a year.
    Mr. Dicks. There is no way.
    Mr. Bonner. There is no way we can do that, especially up 
along the northern border where we have 1,000 agents to cover 
4,000 miles of border 24/7.
    Mr. Dicks. We are aware of that in the State of Washington. 
We certainly are.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you.
    Ms. Dunn may inquire.
    Ms. Dunn. Thank you, Mr. Chairman.
    Let me ask a couple of questions. Mr. Carafano, in your 
written testimony you advocated expanded use of Section 287 of 
the Immigration and Nationality Act which provides authority 
for state and local law enforcement to investigate, detain and 
arrest aliens on civil and criminal grounds. Is this because 
you believe that state and local law enforcement should play a 
greater role in counterterrorism immigration investigations? 
How do you envision expansion of the involvement of state and 
local law enforcement? What problems such as jurisdiction do 
you think might be encountered by increasing the role of non-
federal law enforcement?
    Mr. Carafano. Most of my experience is with looking at the 
pilot program in the State of Florida. There, what you had was 
a case where you had very few, I cannot remember the exact 
number, but a handful of immigration investigative agents to 
cover a very large area. They have a very large immigration 
problem. What they developed in the State of Florida was a 
series of state-local counterterrorism task forces. Some of 
those eventually merged with a state joint terrorism task 
force.
    What they did was they wanted to expand the capacity of the 
federal agents to do counterterrrorism investigations related 
to immigration in the State of Florida. So the program that 
they adapted under Section 287(g) guidelines is that state and 
local officers who are serving on the state counterterrorism 
task forces can receive training from the ICE investigators. 
They are certified by the ICE investigators and then they can 
conduct, and they have certain federal arrest jurisdictions and 
federal authorities as part of that, and then they can conduct 
investigations under the supervision of an ICE agent.
    So what it allows you to do is significantly expand the 
federal capacity to conduct counterterrorism investigations in 
the immigration area, and leverage the knowledge of the state 
and local areas where they no better and they operate. The 
advantage to the state and local guys is that not only are they 
receiving the federal authorities, but also access to the 
federal databases. That knowledge enhances their capacity to do 
their own counterterrorism investigations. So it benefits both 
sides. It is a very appropriate way. There are no question sin 
terms of liability. It is a very low-cost program. It is a very 
controlled way.
    I think one of the great successes in the State of Florida 
is, as you know there is always a lot of reticence on the part 
of local communities when state and local investigators are 
involved in immigration law. Now, they went out to each of the 
communities and they briefed them on the scope of the program 
and how they are going to enforce it. I think they did receive 
a lot of support from the communities because it was limited in 
focus.
    Ms. Dunn. Thank you.
    Let me ask you, too, Mr. Carafano, you suggested in your 
testimony that securing our nation's maritime borders is 
becoming more and more of a concern, actually relatively, 
because we spend so much time and energy on our ports and on 
our land borders. We all appreciate that the layered security 
system can be very effective. We currently have the Container 
Security Initiative. We have C-TPAT. We have the Maritime 
Transportation Security Act to talk about ports. Is that enough 
to get us the layered security system that we are concerned 
about? I speak specifically because I am from a state with 120 
maritime miles that borders with Canada.
    Mr. Carafano. Ma'am, my greatest concern is really in the 
future of the Coast Guard, because I think all of those are 
good layers. The Coast Guard is significant in virtually every 
single one of the layers in one aspect or another, whether it 
is an investigative or monitoring commerce or providing domain 
awareness. As you look to the future, and if you want to expand 
maritime security, which I think there is broad consensus we 
need to do, there are simply not resources to do that. Their 
modernization program simply not get them there from here. To 
me, it is the real linchpin that is risking falling apart.
    This is the hard thing. It is just like the border. You do 
not enhance maritime security by fortifying ports. You enhance 
maritime security by improving maritime security. So you look 
where can you get the biggest bang for the buck? Where can you 
increase security among all the layers? You always come back 
to, if you ramp up the Coast Guard's capabilities and 
sustainability to do the multiple missions over the long term, 
I really think at the end of the day in terms of enhancing 
maritime security and its linkages with border security, that 
is where the biggest bang for the buck is always going to be.
    Ms. Dunn. Thank you.
    Do I have a little more time? I cannot tell.
    Mr. Camp. Fifteen seconds.
    Ms. Dunn. Great. I will ask it quick.
    I would like to know from you about your comments on having 
a specific focused committee both in the House and the Senate 
to oversee the Department of Homeland Security? Could you tell 
us a little of your thinking behind your recommendation?
    Mr. Carafano. A lot of this is based on my experience of 
growing up in the Department of Defense and looking at how the 
Department of Defense has evolved. There is a critical period 
in the history between when it was created in 1947 and the 
early 1950s. The real issues are really kind of in the 
unglorious nuts and bolts kinds of things. Some of the programs 
we have talked about here, like personnel programs, 
organization, administrative programs. You have to get that 
right, and to get that right, you have to get the mission set 
right, and all these multiple different requirements right.
    So unless you can look at it in a holistic way, and make 
sure you have the right strategy and the right programmatics, 
you are going to wind up with a very flawed agency which, like 
when we did not get the Department of Defense right, it took us 
another 40 years to break down fundamental flaws. I think 
without oversight now in a holistic way, from a single 
committee in each Congress, we are going to find up with a 
Department of Defense, which will have similar flaws and 
stovepipes which will take years to break, because once they 
get set, then they never disappear.
    Mr. Camp. Thank you. Your time has expired.
    Mr. Bonner, I just have a question. I appreciate much of 
your testimony. We authorized 1,000 new agents at the border, 
which I understand have been implemented. DHS tells us that 
they are there, that they were hired. Is that your 
understanding, that the 1,000 new agents did come into the 
Department?
    Mr. Bonner. In this past year? I think that dates back 
several years.
    Mr. Camp. Within the last 2 years.
    Mr. Bonner. I believe that over the last 2 years, maybe it 
approaches that much, but I believe it is closer to about 600. 
I think they are at the level that they are authorized, but I 
do not believe that that level is high enough.
    Mr. Camp. I understand that, but we authorized 1,000 and 
the 1,000 have been there. I appreciate that.
    The other issue that they are telling us, and I wanted your 
comment on that, is that the attrition rates have not been as 
high as were anticipated or were assumed when the authorization 
went through, so that people are not leaving the agency as 
rapidly as they thought. So therefore the staffing levels have 
not declined as they thought they would. What is your comment 
on that?
    Mr. Bonner. That is the information that I have been given 
from them, and I have no reason to doubt it. I think that there 
are a couple of reasons that attrition has fallen off, and the 
primary one is the fact that state and local jurisdictions are 
facing some of the same financial shortfalls that the federal 
government is, and that is where most of our agents are 
gravitating towards, law enforcement careers in the state and 
local jurisdictions. They tend to pay more and offer more job 
satisfaction. I think once they start hiring again, you will 
see a mass exodus of employees.
    Mr. Camp. Lastly, I just wanted your comment, we have had a 
lot of testimony, not necessarily today, but over the last 
couple of years, on new technology at the border and the help 
that that may give. I did not hear much from you about that, 
and I just wanted to hear your comment on the developing new 
technologies and the help or lack of help they may give at the 
border.
    Mr. Bonner. I think in certain areas they can be very 
useful tools, but I do not think that you replace hands with 
electronic eyes and ears because ultimately it is those hands 
that apprehend people. For example, in the President's Budget 
request for the upcoming fiscal year budget, they want to 
reallocate a total of about $75 million out of the budget for 
sensors and unmanned aerial vehicles. I think it is a mistake 
to take away from the ability to outfit the agents on the 
border and to staff the border, because at the same time they 
are calling for reductions in the number of Border Patrol 
agents.
    Mr. Camp. All right. Thank you.
    Ms. Jackson-Lee may inquire.
    Ms. Jackson-Lee. Thank you very much. Bells are ringing, 
but I thank you gentlemen very much for your testimony.
    I would like to go first immediately to Mr. Ugazio and 
thank you for your service as well. My understanding is that 
you have cited the numbers of immigration arresting agents and 
inspectors who arrest people, but that there are only 22 
deportation officers who must oversee thousands of cases, while 
ensuring obviously that rights are protected. Are you 
suggesting that we are imbalanced in the resources and that we 
need additional resources to make that more even-handed?
    Mr. Ugazio. Yes, ma'am. Thank you for the question. The 
situation is, if I can just use a quick analogy, if you have a 
small town and you have 15 officers arresting all the bad guys, 
but you have one guy at the end processing and the jailer, and 
he is out catching 15 bad guys are even more, they are going to 
come to that jail, and immigration where I am at is that jail. 
So basically, the situation is you are going to have one guy 
doing the work of all these different people and it is going to 
be a difficult situation if you do not have an even number of 
people on my end interacting with these guys.
    Ms. Jackson-Lee. In actuality, what you are saying is we 
need to have a greater input from the local community as to the 
need of resources. Might I just say this in addition to 
overburdening you, I think a lot of times it eliminates your 
ability to use discretion in some of the cases that we have 
dealing with deportation. For example, two cases I am dealing 
with in Houston, an individual whose baby is dying is not a 
threat, not a terrorist, and would probably be able to be 
handled on supervised leave, if you will, from the detention 
center, but because of I guess some issues dealing with being 
overworked, it does not allow you to make a decision on these 
individual cases. Would you suggest that?
    Mr. Ugazio. Yes, ma'am, I would. It is difficult for the 
deportation officers in my section to properly analyze every 
case and understand exactly. They do what they can. They do a 
great job, but it is difficult to look at every case and say 
this is a situation that needs attention ASAP.
    Ms. Jackson-Lee. Mr. Bonner, why don't you respond to that, 
about getting local input? Then I also just would follow up 
with my last question, which I am very concerned about, is the 
deaths that are occurring out in the Arizona desert, and 
particularly how that is impacted by the Arizona initiative. We 
have not seen any response, as I understand it, from those 
tragic deaths that are occurring, and being able to give relief 
both in terms of the victims who are coming in, who I know may 
be coming in illegally, but they are human beings and should be 
treated as such. So Mr. Bonner, what about taking in local 
input and balancing those resources between what Mr. Ugazio has 
said and what we are doing here in Washington.
    Mr. Bonner. I agree with him wholeheartedly. You absolutely 
have to have enough resources to accomplish, all aspects of the 
job. You cannot just hire a lot of enforcement agents and then 
neglect the support functions such as detention and removal.
    As far as the Arizona Border Control Initiative, back when 
they launched the initiatives, such as Operation Hold the Line 
and Operation Gatekeeper, they should have foreseen that it was 
going to result in desperate people taking desperate measures. 
They made a serious miscalculation believing that people would 
stay away from the deserts and the mountains, and that if they 
just enforced the law with a great concentration of agents in 
the heavily populated areas that that would solve the problem.
    As we have seen, it is simply not the case. These people 
are very desperate and they will cross in 120-degree weather 
carrying two jugs of water. It becomes very deadly for them. 
And the smugglers do not tell them any differently. They say, 
oh, this is a piece of cake. You are going to walk for a couple 
of hours and then you are going to be at a place where you are 
going to be picked up, when in fact they know that it is going 
to be a 12-hour walk and you cannot possibly humanly carry 
enough water with you to survive that journey.
    It is a tragedy and it is something that we need to address 
by getting more personnel out there to stop people from coming 
through those areas. It is a large border. It is going to take 
a lot of personnel.
    Ms. Jackson-Lee. I think this committee and our 
subcommittee should really look to that issue, because people 
are still dying. Officers are in jeopardy, and even with the 
Initiative, it probably has not reached the point where we are 
seeing a difference. So I am very interested in that.
    Let me finish by just simply saying I indicated that we 
have put forward a smuggling legislative initiative that 
includes a reward component to it in order to break some of 
these large smuggling operations. We have seen it work in other 
law enforcement efforts. What would be your thought about that 
sort of legislative initiative?
    Mr. Camp. The gentlewoman's time has expired. We do have a 
vote on.
    I want to thank the panel for their testimony. I want to 
thank both panels. I note that with additional questions, 
members may wish to submit them in writing. Without objection, 
the hearing record will remain open for 10 days.
    Ms. Jackson-Lee. Mr. Chairman, would you just yield for a 
moment?
    Mr. Camp. I am going to conclude the hearing now.
    Ms. Jackson-Lee. Let me just make sure that Mr. Bonner 
would be happy to provide me that in writing, and I would 
appreciate it.
    Mr. Bonner. Absolutely.
    Ms. Jackson-Lee. Thank you very much, Mr. Bonner.
    Mr. Camp. There being no further business, I again thank 
the subcommittee members and our witnesses today. The panel is 
dismissed and the hearing is now adjourned.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
